<html>
<title> - EXAMINING THE ADMINISTRATION'S INFRASTRUCTURE PROPOSAL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
         EXAMINING THE ADMINISTRATION'S INFRASTRUCTURE PROPOSAL

=======================================================================

                                (115-37)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                           _________ 

               U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-618 PDF            WASHINGTON : 2018                                  
                             
                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
JEFF DENHAM, California              JOHN GARAMENDI, California
THOMAS MASSIE, Kentucky              HENRY C. ``HANK'' JOHNSON, Jr., 
MARK MEADOWS, North Carolina             Georgia
SCOTT PERRY, Pennsylvania            ANDRE CARSON, Indiana
RODNEY DAVIS, Illinois               RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
ROB WOODALL, Georgia                 SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut, 
JOHN KATKO, New York                     Vice Ranking Member
BRIAN BABIN, Texas                   LOIS FRANKEL, Florida
GARRET GRAVES, Louisiana             CHERI BUSTOS, Illinois
BARBARA COMSTOCK, Virginia           JARED HUFFMAN, California
DAVID ROUZER, North Carolina         JULIA BROWNLEY, California
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           DONALD M. PAYNE, Jr., New Jersey
DOUG LaMALFA, California             ALAN S. LOWENTHAL, California
BRUCE WESTERMAN, Arkansas            BRENDA L. LAWRENCE, Michigan
LLOYD SMUCKER, Pennsylvania          MARK DeSAULNIER, California
PAUL MITCHELL, Michigan              STACEY E. PLASKETT, Virgin Islands
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota


------------------------------------------------------------------------
       Rules of the Committee on Transportation and Infrastructure
-------------------------------------------------------------------------
Rule XIV. Records
(a) Keeping of Records.--The Committee shall keep a complete record of
 all Committee action which shall include----
  (1) in the case of any meeting or hearing transcripts, a substantially
 verbatim account of remarks actually made during the proceedings,
 subject only to technical, grammatical, and typographical corrections
 authorized by the person making the remarks involved;...
------------------------------------------------------------------------

                                 (iii)
                                 
                                 
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES

Hon. Elaine L. Chao, Secretary of Transportation, U.S. Department 
  of Transportation:

    Testimony....................................................     5
    Prepared statement...........................................    65
    Responses to questions for the record from the following 
      Representatives:

        Hon. Eric A. ``Rick'' Crawford of Arkansas...............    67
        Hon. Peter A. DeFazio of Oregon..........................    67
        Hon. Bob Gibbs of Ohio...................................    74
        Hon. Eddie Bernice Johnson of Texas......................    74
        Hon. Mark Meadows of North Carolina......................    75
        Hon. Rick Larsen of Washington...........................    77
        Hon. John Katko of New York..............................    78
        Hon. Grace F. Napolitano of California...................    78
        Hon. Barbara Comstock of Virginia........................    79
        Hon. John Garamendi of California........................    80
        Hon, David Rouzer of North Carolina......................    81
        Hon. Frederica S. Wilson of Florida......................    81
        Hon. Randy K. Weber, Sr., of Texas.......................    87
        Hon. Alan S. Lowenthal of California.....................    89
        Hon. John J. Faso of New York............................    90
        Hon. Stacey E. Plaskett of the U.S. Virgin Islands.......    91

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Donald M. Payne, Jr., of New Jersey, together with article 
  of March 12, 2018, entitled, ``Trump Administration Uses Fuzzy 
  Logic to Derail $11 Billion Tunnel Plan for New York and New 
  Jersey,'' by Salvador Rizzo, Washington Post...................    92

                       SUBMISSIONS FOR THE RECORD

Letter of February 28, 2017, from Hon. Dina Titus of Nevada et 
  al., to Hon. Elaine L. Chao, Secretary of Transportation, U.S. 
  Department of Transportation; submitted by Hon. Titus..........   100
Hon. Elizabeth H. Esty, a Representative in Congress from the 
  State of Connecticut, submission of the following:

    Letter of March 5, 2018, from Catherine Chase, President, 
      Advocates for Highway and Auto Safety, et al., to Hon. Bill 
      Shuster, Chairman, and Hon. Peter A. DeFazio, Ranking 
      Member, Committee on Transportation and Infrastructure.....   101
    Letter of March 5, 2018, from Shailen Bhatt, President and 
      CEO, ITS America, to Hon. Bill Shuster, Chairman, and Hon. 
      Peter A. DeFazio, Ranking Member, Committee on 
      Transportation and Infrastructure..........................   107
    Letter of March 6, 2018, from Alabama Rivers Alliance et al., 
      to Hon. Bill Shuster, Chairman, and Hon. Peter A. DeFazio, 
      Ranking Member, Committee on Transportation and 
      Infrastructure.............................................   109
    Letter of March 5, 2018, from Robert P. Canavan, Chair, 
      Rebuild America's Schools, to Hon. Peter A. DeFazio, 
      Ranking Member, Committee on Transportation and 
      Infrastructure.............................................   114
    Joint written statement of David H. Fialkov, Vice President, 
      Government Affairs, Legislative and Regulatory Counsel, 
      National Association of Truckstop Operators, and Brittney 
      D. Kohler, Program Director, Transportation and 
      Infrastructure, Federal Advocacy, National League of Cities   116
    Letter of March 6, 2018, from Hon. John K. Delaney, a 
      Representative in Congress from the State of Maryland, et 
      al. (New Democrat Coalition), to Hon. Elaine L. Chao, 
      Secretary of Transportation, U.S. Department of 
      Transportation.............................................   122
Letter of March 13, 2018, from Franchise Business Services 
  (representing BWW franchisees) et al., to Hon. Bill Shuster, 
  Chairman, and Hon. Peter A. DeFazio, Ranking Member, Committee 
  on Transportation and Infrastructure, submitted by Hon. Rodney 
  Davis of Illinois..............................................   126

                        ADDITIONS TO THE RECORD

Letter of March 6, 2018, from Dennis Slater, President, 
  Association of Equipment Manufacturers, to Hon. Bill Shuster, 
  Chairman, and Hon. Peter A. DeFazio, Ranking Member, Committee 
  on Transportation and Infrastructure...........................   128
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
  


         EXAMINING THE ADMINISTRATION'S INFRASTRUCTURE PROPOSAL

                              ----------                              


                         TUESDAY, MARCH 6, 2018

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 2167 Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order. As Members 
take their seats, the committee will come to order. And without 
objection, the Chair is authorized to declare a recess at any 
time, although I don't believe we are going to have votes until 
this afternoon, so I don't think that will be a problem.
    But we welcome and thank Secretary Chao for testifying 
today on the administration's infrastructure proposal.
    Welcome, Secretary Chao.
    I have been encouraged by the President's focus on 
infrastructure since before the election and through his 
inauguration, when I believe he became the first President in 
our history to mention the word ``infrastructure'' in his 
inaugural address, although I do believe along the way Lincoln 
called them internal improvements.
    And so, again, infrastructure, internal improvements, have 
always been part of the Federal Government's role. And 
actually, that is why we have emblazoned over the two doors, 
one, Adam Smith, ``The Wealth of Nations,'' talking about the 
need for the duty of the sovereign, the Government, to--one of 
the three things is the duty of erecting and maintaining 
certain public works and certain public institutions that can 
never be in the interest of any individual or small number of 
individuals, erect and maintain.
    So again, Adam Smith even said it, and of course our 
founders that were students of Adam Smith talked about and put 
in the Constitution Congress' main three roles: defense of the 
general welfare, regulate commerce, and to establish post 
offices and post roads, article 1, section 8.
    So again, from the founding of this country there has been 
a Federal role. It is at all levels of Government. Local, 
State, and Federal have a role. It is not just the Federal 
Government, but we certainly need to continue to participate to 
make sure we continue to have a robust national transportation 
system.
    Over the past year, though, statement of support for 
increasing investment in America's infrastructure has been 
positive, and the President's interest, his background as a 
builder, and his leadership on the issue will be crucial to 
building 21st-century infrastructure for America.
    I look forward to working with you, Madam Secretary, as we 
move forward this year.
    Some of the administration's infrastructure proposals are 
much needed. I have questions about some of the other proposals 
and how the work--for example, I want to commend you for work 
you and the DOT have done in speeding up projects. We now have 
about--between MAP-21, and the FAST Act, about 50 percent of 
those streamlining proposals have been put in place. There is 
still more on permitting that we need to do to get this 
permitting process down to a reasonable number of years. The 
last two highway bills, as I said, had those types of reforms 
in it. And there is more to do to fully enact those.
    Still, it takes too long for projects to move forward. On 
average, it is about 14 years for a major road project to move 
forward, and that is just way too long. To cut that in half, 
the President has been talking about 2 years, which would be 
fantastic. But if you cut that 14 just by--in half, just on 
the--no, excuse me, inflation alone, you would save somewhere 
between 12 and 15 percent on a project, and that, over time, 
adds up to real, real dollars.
    And I have said many times before, an infrastructure plan 
must be a bipartisan plan if it is going to pass Congress. The 
Senate rules with the 60 votes, it has to be bipartisan there. 
And I am sure, in the House, if we are to do a bipartisan bill, 
we need to bring our Democratic colleagues on board and work 
closely with them to produce something that will pass through 
the House on a bipartisan vote.
    I have been working with and plan to work with Ranking 
Member DeFazio and my Democratic colleagues to develop a plan 
that does attract bipartisan support. To do that we have to be 
realistic about our needs and how we can address them in a 
fiscally responsible way.
    Fixing the Highway Trust Fund for the future and 
modernizing how we fund infrastructure in this country must be 
part of the solution. In fact, that has to be, really, the 
starting point. If we don't figure out how to trust the trust 
fund, October 20, October--or into early 2021 the trust fund 
will run out.
    And again, if you look across the country, 31 States have 
already dealt with their shortfalls in revenue, and there has 
been no political price for fixing their revenue. They did it 
in very different ways, and it has been States with Democratic 
legislatures and Democratic Governors, it has been States--my 
home State of Pennsylvania, a Republican house and senate and a 
Republican Governor fixed their funding, the revenue shortfall. 
And again, there was no political price to pay, because I think 
the American people understand the need we have to invest in 
our infrastructure.
    So I look forward to continuing working with you at the 
White House and my colleagues in Congress on a bipartisan 
infrastructure plan.
    And so, with that, I recognize the vice ranking member of 
the committee, Ms. Esty, for the opening statement. I guess Mr. 
DeFazio missed the plane.
    Ms. Esty. Delayed.
    Mr. Shuster. If we would have only passed my FAA 
reauthorization----
    [Laughter.]
    Mr. Shuster [continuing]. Mr. DeFazio would be here. But 
now that Mr. DeFazio is not here, I am having second thoughts.
    Mr. Larsen. Tell us more, tell us more.
    Mr. Shuster. I think it is better we didn't.
    [Laughter.]
    Ms. Esty. I believe it was canceled, not delayed. Thank 
you, Chairman Shuster, and thank you, Secretary Chao, for 
joining us here today. We are now over 400 days into the Trump 
administration, far past the 100-day mark, a period during 
which the President promised to enact a bill to invest $1 
billion in infrastructure.
    After a lot of talk, the White House finally released its 
long-awaited infrastructure plan 3 weeks ago. Sadly, my 
frustration over the long delay in getting to see the White 
House plan has now been eclipsed by my frustration over what is 
actually in it.
    How we structure an infrastructure package and how we pay 
for it matters a lot. If an infrastructure package is to bring 
together successfully, it must be based on a mutual 
understanding that we need real sustainable investment to 
improve the productivity and mobility of our communities. We 
can't do it based on gimmicks, shifting responsibility among 
partners, or glossing over years of underinvestment.
    What we need is a sound, long-term investment at the 
Federal level that will create millions of jobs, boost local 
economies, and pay dividends for generations to come. Let me 
elaborate.
    Number one, an investment package must contain real Federal 
funding, and I am glad that the chairman mentioned the 
importance of actual funding for these programs. An investment 
of $1 trillion in Federal infrastructure funding will create or 
sustain 16 million jobs. And those are well-paid jobs. Instead, 
the President's promised $1 trillion has turned out to be only 
$200 billion over 10 years, over a broad swath of 
infrastructure needs. That is $20 billion a year to cover all 
modes of transportation, broadband, wastewater, drinking water, 
as well as veteran and GSA facilities.
    And let's be clear. This $200 billion in ``additional 
money'' is proposed in the broader context of $168 billion in 
cuts to existing transportation, transit, and infrastructure 
funding over the same 10-year period.
    So, in reality, the President is proposing very little, if 
any, new Federal money. The White House envisions that the new 
money that they can take credit for as Presidentially led 
investments will actually come from the State and local level 
by tolling and taxing citizens more, or by bonding to be paid 
off by future tax revenues. That is pushing the cost on to 
Americans not yet born.
    Congress and the White House missed a massive opportunity 
to raise revenue for infrastructure in the tax bill, which is 
mind-boggling, because 250 Members of Congress with robust 
representation from both sides of the aisle wrote to the 
leadership of the Ways and Means Committee, urging that a 
permanent solution to our Highway Trust Fund be included in 
that tax bill.
    And so, we continue to spin our wheels on how to bridge the 
gap between nearly universal support for fixing our Nation's 
infrastructure and our massive funding needs.
    Number two, selling off public assets is a cash grab, not a 
solution. To bridge this gap in part, the White House 
infrastructure plan contains several attempts to push a 
privatization agenda. This isn't the solution. There is 
universal bipartisan agreement, even among those in the private 
sector, that public-private partnerships, so-called P3s, will 
not solve our infrastructure crisis and will do nothing for the 
vast majority of surface transportation projects.
    And as the chairman already noted, we need look no further 
than the quotations now painted on the wall, painted there for 
all of us to look at every day about the Federal role in 
funding infrastructure.
    Number three, we can't streamline our way out of 
underinvestment. Let me address the favorite Trojan horse in 
infrastructure: environmental streamlining. Rolling back 
environmental protections will not save hundreds of billions of 
dollars.
    The vast majority of projects, 90 percent of projects, are 
already exempt from full environmental review, and proceed 
under a categorical exclusion, so-called CE. Only 4 percent of 
projects require the preparation of an environmental impact 
statement, the most detailed review document. And for the 
surface transportation projects that do undergo a detailed 
review, the time for completion is less than 4 years.
    In the last decade, Congress has passed extensive 
legislation to expedite environmental review, based on inputs 
from State DOTs, timelines to complete various levels of 
environmental review have fallen significantly as a result. 
While there may still be legitimate policy changes, Congress 
should consider to expedite project delivery, which I and many 
of my colleagues are open to hearing about; artificial 
deadlines, and punitive actions are not the answer.
    Number four, let's work with what we have: existing Federal 
programs. The White House talking points claim to want to give 
States and local governments more decisionmaking power, yet 
they have proposed to direct 80 percent of infrastructure 
funds, $160 billion of the $200 billion, to grants or loans 
selected by the Federal Government. Again, these programs are 
coupled with cuts to existing programs under which States and 
local governments currently select those projects.
    Instead, Congress can quickly and fairly direct 
infrastructure dollars to States and cities through existing 
infrastructure programs. Doing so ensures that these 
investments result in projects that utilize American iron and 
steel, by enforcing Buy America protections; they support good-
paying jobs for American families by maintaining prevailing 
wage and other worker protections; and provide opportunities 
for diverse small businesses to participate. This will also 
ensure real investment will be available immediately to spend 
on the projects State and local governments determine are the 
most worthy.
    Ranking Member DeFazio included a provision in the FAST Act 
to ensure that if additional funding came in through the 
Highway Trust Fund, Congress will not have to take any further 
action to see those dollars put to good use right away. Again, 
by utilizing the existing structure, each authorized highway 
and transit program will get a proportional plus-up.
    The clock is ticking. Since President Trump took office, 
time wasted by commuters, travelers, and inefficient movement 
of goods has already cost the American economy more than $179 
billion. If the President and the Republican leadership in 
Congress are serious about making infrastructure a priority and 
finding new revenue to pay for it, then we have a unique 
opportunity to make badly needed investments in our roads, 
bridges, transit systems, rail infrastructure, airports, and 
ports that we have been neglecting for decades.
    Let's work together. Let's seize this opportunity, and 
let's make a real investment in America. Thank you, Mr. 
Chairman.
    Mr. Shuster. Thank you. I would now like to welcome again 
the Honorable Elaine Chao, Secretary of Transportation. And I 
would ask unanimous consent that our witness' full statement 
will be included in the record.
    Without objection, so ordered.
    Secretary Chao, again, thank you for being here today. And 
you are now recognized.

TESTIMONY OF HON. ELAINE L. CHAO, SECRETARY OF TRANSPORTATION, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary Chao. Thank you very much, Chairman Shuster. And 
even though Ranking Member DeFazio is not here, I do want to 
also acknowledge him. Members of the committee, thank you for 
the opportunity to testify today.
    As you have heard, infrastructure is indeed the backbone of 
our country's economy, the most productive, flexible, and 
dynamic in the world. It is a key factor in productivity and 
our economic growth. And yet, as we have all heard and 
experienced, the challenges are everywhere.
    With respect to surface transportation, traffic congestion 
and delays cost drivers nearly $160 billion annually. About 
one-quarter of our Nation's bridges are structurally deficient, 
which, by the way, does not mean that they are unsafe. When 
bridges are unsafe, we shut them down immediately. Structurally 
deficient means that we have to monitor them more closely on a 
more regular basis.
    More than 20 percent of our Nation's roads are in poor 
condition. And the transportation needs of rural America, which 
account for a disproportionately high percentage of our 
Nation's highway fatalities, have been ignored for too long. 
And that is why, over the past year, amongst all the other 
agenda items which the administration has undertaken, many 
agencies have been supporting the President, working hard on a 
comprehensive infrastructure framework which the President 
announced as a priority in his 2018 State of the Union Address.
    Transportation is one component. The initiative includes, 
but is not limited to, energy, drinking and waste water, 
broadband and veterans' hospitals, as well. It is designed to 
change how infrastructure is designed, built, financed, and 
maintained in communities across the country.
    The goal of the President's proposal is to stimulate at 
least $1.5 trillion in infrastructure investment, which 
includes a minimum of $200 billion in direct Federal funding. 
The guiding guidelines and principles are, one, to use Federal 
dollars as seed money to incentivize non-Federal infrastructure 
investments; two, provide for the needs of rural America; 
three, streamline permitting to speed up project delivery; 
four, reduce unnecessary and overly burdensome regulations.
    In addition, a key element of the proposal is to empower 
decisionmaking at the State and local level. They know best the 
infrastructure needs of their communities. Half of the new 
infrastructure funds will go toward incentivizing new State, 
local, and private-sector investments in infrastructure. One-
quarter of the Federal funds will be dedicated to addressing 
rural infrastructure needs, as prioritized by State and local 
leaders. And, as a former Secretary of Labor, I am pleased to 
note that this plan also has a workforce component to help 
workers access the skills necessary to build these new 
projects.
    The Department is also implementing the President's ``One 
Federal Decision'' mandate announced on August 15, 2017, to 
help speed up the delivery of new infrastructure and reduce the 
cost of new buildings.
    In addition to permitting reform, the Department is doing 
its part to grow the economy and create jobs through regulatory 
reform. Costs associated with new DOT regulations decreased by 
$312 million in 2017, and the Department is on track to 
decrease these costs by at least $500 million in 2018.
    By incentivizing new investments in infrastructure, 
eliminating overly burdensome regulations, providing support 
for rural America, and streamlining the permitting process, the 
Department is helping to improve our communities and people's 
quality of life and build a brighter future for all Americans.
    Some estimates put our country's infrastructure needs at 
approximately $4 trillion. The President's plan encourages the 
private sector to help in the building of our public 
infrastructure. For example, endowments and pension funds are 
interested in investments like public infrastructure, which 
have collateral that will not walk away. In addition, the 
private sector helps to allocate risk. If a project is not 
successful, the private sector bears the first loss instead of 
the taxpayer.
    The Department realizes and recognizes that different 
regions require different solutions. The private sector 
investments should not be disallowed, and should be an 
allowable option, where appropriate. The administration looks 
forward to working with all of you on what we hope will be a 
bipartisan package to address these needs.
    Thank you very much.
    Mr. Shuster. Thank you. In the spirit of bipartisanship, I 
am going to start with recognizing my Democratic colleague, Ms. 
Esty, to start the questioning.
    Ms. Esty. Thank you, Mr. Chairman. And thank you again, 
Secretary Chao, for your long service to this country, and for 
appearing before our committee today.
    [Slide]
    Ms. Esty. According to the administration--and I think we 
have got our graphic up, but we may need better glasses to read 
that, but I direct people's attention to what is now up on the 
screens.
    According to the administration, a key element of this 
infrastructure proposal is to empower decisionmaking at the 
State and local level because these are the officials who know 
best the infrastructure needs of their own communities.
    However, if we look at this chart, we will see that 80 
percent of the funding under this proposal goes to projects 
selected or approved by the administration, not by State and 
local government. Governors only get to allocate 20 percent of 
the funding, and the locals don't get to decide anything.
    Secretary Chao, can you explain how this squares with the 
vision of empowering State and local government when you look 
at or--if you can, explain that dichotomy between the promise 
and what we see----
    Secretary Chao. Well, we disagree with that chart, 
obviously. We feel that the local and State communities and 
applicants will have a great deal of say. They will come up 
with the projects, they will decide who they want to work with. 
They will decide what projects to prioritize. So it would be up 
to them. It would be a partnership.
    Ms. Esty. But ultimately, the administration will be making 
the selection for those projects. Isn't that correct?
    Secretary Chao. Well, the administration will be working on 
these projects, as they do in the TIGER [Transportation 
Investment Generating Economic Recovery] grants, as they do in 
the INFRA [Infrastructure for Rebuilding America] grants. It is 
the same concept.
    Ms. Esty. I think most of us have found our experience with 
TIGER grants is Governors are the ones who decide and 
prioritize those. So I think, with all due respect----
    Secretary Chao. Well, that is an issue with the congressmen 
and the Governors.
    Ms. Esty. Secretary Chao, the White House plan also 
provides limited Federal dollars in order to incentivize non-
Federal partners. We have had some discussion about that. You 
personally have called this a new paradigm in infrastructure 
investment, where the Federal Government takes a back seat.
    And frankly, I have got to tell you I am hearing this at 
the local level. I was just home in Connecticut. They see this 
as pushing the problem down onto the States and local 
government.
    Given that States and local government already provide the 
majority of funding for highway and transit projects, why does 
the administration want to put more of the burden on local 
governments, many of which are already strained? And those that 
are struggling economically, that need this benefit most, are 
also going to be hit really hard by this shift.
    Secretary Chao. Well, the National Highway System, you 
know, our roads and bridges, are actually very decentralized. 
Ten percent of the overall roads are owned by the Federal 
Government. They are called the interstate highway parts. The 
rest of the highway system, the national highway, is actually 
State and local. And then the rest of the roads and bridges are 
basically State and local.
    So, the majority of the roads and bridges are actually 
locally owned. As mentioned, the Federal Government owns about 
10 percent and we fund about 20 percent.
    Ms. Esty. Although, again, I have three interstates--I am 
just saying--in my district, in my State, I-91, I-95, and I-
84--crossed by hundreds of thousands of Americans traveling up 
and down the eastern seaboard every single day. And those are 
aging infrastructure. The chairman's district is like that, 
too. We have aging Interstate Highway Systems and local and 
State authorities are not in a position to pay for the redo of 
all of those with----
    Secretary Chao. Well, I know those routes very well, having 
spent my childhood in the New York area.
    So I think that what you are referring to is the whole 
issue of pay-fors. And I think the good news on the pay-fors is 
that everything is on the table, and we look forward to working 
with Congress on those.
    Ms. Esty. Because I will tell you again this came up last 
week. I met with the State legislators, Republicans and 
Democrats in my home State. And they are concerned. They are 
saying if the Federal Government is rolling back its commitment 
on infrastructure, and the States are going to have to come up 
with that money, that is less money they have to pay for 
precisely the roads and bridges that you have identified that 
are already paid for by local government and States.
    So, with all due respect, if there is less Federal 
investment--because we are not talking about additional Federal 
investment when there is a time of additional need--if there is 
less Federal investment, States and localities will 
proportionately--especially when we have not erected and 
maintained, as the chairman pointed out, we haven't been 
maintaining the Federal infrastructure or the State.
    With all due respect, I would suggest the Federal 
Government has a role in ensuring the Federal investments are 
maintained.
    Secretary Chao. Well, that is in your State. And we do not 
agree that it was a rollback. As I mentioned, most of the 
Federal role is actually quite limited. In the beginning of our 
history, in our country's history, a lot of the infrastructure 
was done by the State and local and private sector. So there 
has been no rollback.
    The Federal role was only confined to the intrastate. There 
are many, many other roads and bridges and National Highway 
Systems that are not part of the Federal role. But having said 
that, I acknowledge that pay-for is a big issue. And so we want 
to work with the Congress in finding solutions to that.
    Ms. Esty. Thank you. And I see we are over time.
    Mr. Shuster. I thank the gentlelady. We will--let me start 
off with--the pay-for is critical. And we can argue back and 
forth about this, and we will, for the foreseeable future. 
Unfortunately, also we have to talk to the Ways and Means 
Committee.
    But I think it is important to point out that--and 
especially to my Republican colleagues, who--many of your 
States--I have two of my colleagues here from Pennsylvania, or 
three--our State, Pennsylvania, dealt with it. And the user fee 
we pay at the pump, it is a user fee. We continue to call it a 
tax, but it technically is a user fee. If you don't use the 
roads, you don't pay for them. So it is a user fee.
    Now, the next thing that will come from conservatives is 
that it is a regressive user fee. And I come from rural 
Pennsylvania, so my folks will pay more. But it has a 
progressive benefit to the folks in rural Pennsylvania. The 
most rural counties in America, for every dollar they put in 
they get $1.70 back. You cannot build a road from Pittsburgh to 
Philadelphia through rural Pennsylvania without the population 
centers subsidizing roadways through my district.
    We saw this as we went through Pennsylvania, the complaint 
from those in my district, the legislators, we subsidized SEPTA 
and the Pittsburgh Transit Authority by 30 percent. A roadway 
through my district gets subsidized anywhere from 50 to 70 
percent, because there just isn't the population.
    So, I think it is important for us all to understand that 
we are talking about something that has a huge benefit to those 
of us that live in rural populations and, again, benefits the 
urban centers so they can get across those rural areas.
    So again, we can talk 15 cents raising the gas tax, average 
American pays $2. That is a cup of coffee--unless you drink 
Starbucks coffee, that is half a cup of coffee--or it is two 
bottles of water that you can get at home for pennies. So I 
think it is something that is really sellable to the American 
people. And the President has said--he proposed in a meeting 25 
cents. I mean that is a great starting place to start to talk 
about this.
    But I think we have to get past that to talk about other 
things. And one of the questions I have for you, Madam 
Secretary, is on an idea called asset recycling.
    Now, some of my colleagues--Mr. DeFazio, he is not here, so 
I will say he wants me to--he wants--I am proposing we sell all 
of our assets. That is not at all what they did in Australia. 
They leased their assets. They formed a lease agreement, they 
still have a say in the matter. They can take it back at any 
time if there is no performance.
    So I wanted to see what your thoughts are on the idea of 
asset recycling.
    Secretary Chao. We want all funding and financing options 
to be available, because that is going to be the biggest 
challenge facing this infrastructure proposal. And so, we 
should look at other countries, as mentioned, like Australia, 
like many European countries in which there are public-private 
partnerships which have been very successful, and there has 
been asset recycling.
    So we should be looking at all of these. And in some of our 
States we do not allow many of these other financing options to 
be utilized. And so, what we are saying is let's be open to all 
sorts of other options.
    So, for example, it is not only toll roads, but it is 
private activity bonds, it is different aspects, revenue 
availability streams, there are many different options. I would 
like to encourage all of us to look at some of these other 
options, and not disallow or forbid any one of them from being 
considered in the proposal.
    Mr. Shuster. And I think that is a great point. I think 
pointing to Europe and other countries, social democratic 
countries around the world, they are turning to the private 
sector all the time to try to figure out ways to get them 
involved, to utilize.
    I know the Canadian pension funds are huge investors in 
infrastructure, not just in Canada, but around the world. But 
again, it is not a silver bullet. But we have to, again, look 
at ways to expand that, to encourage that. It is one of the 
tools in the toolbox, but it can be a bigger tool in the 
toolbox, I believe.
    And so the final question I have for you is on permitting. 
I know you have done many rulemakings. Permitting is still a 
problem. I think there is the need for some legislation to help 
you with the permitting process, but can you tell us the 
permitting situation over at DOT, how are you moving forward? 
You know, what is the outlook?
    Secretary Chao. People get permitting and the deregulatory 
agenda mixed up. They are actually quite different.
    Also, the FAST Act asked that the Department in 2015 
implement a number of NEPA [National Environmental Policy Act] 
improvements. Of the 31 requested rules, we have actually 
completed 29. There are two more coming out, probably around 
June and July. But the FAST Act requirements only refer to 
NEPA, and the permitting is actually different, and that is why 
the ``One Federal Decision,'' which the President announced 
last August 2017, will address some of the permitting.
    And the permitting processes that we are talking about do 
not compromise all of our concerns about the environment at 
all, but it refers to sometimes very simple, commonsensical 
ways in which we can improve the permitting process.
    For example, many permitting processes occur sequentially, 
rather than concurrently. There is no reason why several 
processes cannot occur simultaneously. But instead, many of 
them occur sequentially.
    Another example is when sister agencies within the same 
department, for example, the Department of Transportation, 
cannot share their information with each other. They each go 
out for their own surveys, sequentially. So that lengthens the 
time that it takes for permitting.
    There are other commonsensical ways of reducing 
duplication, you know, some regulations or even some guidance, 
ask for the same things, but they will ask for a different 
timeline, so that the reporting requirement then has to be done 
all over, because they asked for different time periods. So, we 
all protect the environment, but the permitting is not NEPA, 
the permitting is different.
    And then we are actually making progress in a lot of the 
private sector, these private pension funds. They are actually 
quite anxious to help in the rebuilding of infrastructure. And 
it would help if we decrease the permitting process without 
compromising any of the environmental concerns. That will 
decrease the risk profile and enable more private-sector 
pension funds, for example, to come and help in the financing 
of public infrastructure.
    Mr. Shuster. Well, thank you very much for that. And again, 
we are ready, willing, and able for your department to send 
forward to us things that we can be helpful in that permitting 
process, to streamline, to make it easier. If we have to pass 
legislation, that is something we all on this committee should 
be willing to undertake.
    One of the great places to start when it comes to 
permitting and Government regulation is the Corps of Engineers. 
I met with the Conference of Mayors yesterday and last week 
with AASHTO [American Association of State Highway and 
Transportation Officials], and I always like to get a show of 
hands: Who has had a project that they have worked on, or 
working on, or want to work on that the Corps of Engineers has 
been a huge challenge to the project? And every single person 
in the room raises their hand.
    So that is why the subcommittee chairman Garret Graves and 
I are working now, and everybody should realize we are going to 
move forward with a water resources bill, and one of the 
focuses is going to be a serious look at the Corps of Engineers 
and a serious look at why does the Corps of Engineers need the 
Civil Works piece of it, why does it need to be at DoD.
    Two hundred years ago it made sense, the Army was the only 
thing that could build a dam, a roadway. But today there is no 
need for the Civil Works to remain at DoD. It needs to move to 
a different agency. I would propose DOT. Secretary Zinke wants 
it to go to the Department of the Interior. I think that would 
be a healthy debate, and I would encourage all my friends--
because I know on the Democratic side of the aisle there is 
none of you that has not seen the Corps of Engineers stop, 
stifle, or just increase the cost of a project.
    And so, with that, I yield 5 minutes to Ms. Norton.
    Ms. Norton. I very much appreciate this hearing, because 
there has been so much talk about the President's 
infrastructure plan, and now we have an opportunity to inquire 
about it.
    I have two questions for you, Madam Secretary, and I am so 
pleased to see you here this morning.
    One has to do with the holdup in appropriated funds. Well, 
you know, it is hard enough to get funds out of here. And I 
note, by the way, that in the President's infrastructure bill 
there would be $130 billion in new competitive grant funds. So 
this committee and the Congress is likely to look at, well, 
what have you done with the funds we have appropriated or 
authorized?
    According to our count, there is nearly $6 billion in 
program funds that remain unspent. And of this $2 billion are 
among the most competitive. More jurisdictions want them than 
can possibly qualify for the amount in INFRA and TIGER grants, 
for example. And I note that this looks like it is something of 
a trend.
    You held up $1 billion, even in emergency relief funds, 
until the Democrats in this committee wrote you and it was 
released.
    I have to ask you Madam Secretary, what is keeping you from 
getting this money out of the door? And don't you think it will 
reflect on whatever we are able to do with the President's plan 
if that money is not gotten to where it is needed?
    Secretary Chao. Thank you for that question. I don't think 
that is accurate, that the emergency relief funds are not 
released. We have actually made record time.
    Ms. Norton. It has been released now, but only after----
    Secretary Chao. No, no, no. I think we understand how 
important the emergency relief funds are, and as soon as a 
request comes in, we have actually been very, very good about 
turning it around.
    Ms. Norton. I know they are released now, but the Democrats 
on this committee had to write a letter in order to get them 
released. OK, they are released now.
    Secretary Chao. Well, I may respectfully disagree.
    Ms. Norton. But I have only so much time, Madam Secretary--
--
    Secretary Chao. If I can answer the rest of your questions, 
the $6 billion, I do not think we have that much money 
outstanding.
    But I have good news for you. I don't think it is $6 
billion, either.
    But having said that, I think it took a while for this 
Government to be stood up, because we didn't have our nominees. 
I only had four nominees confirmed as of February of 2018. I 
just got three others confirmed last week. So the ability of 
this Government to stand up under this administration has been 
impacted by our not having our top leadership.
    Ms. Norton. Yes, we have noticed that. And that is very 
good news. Can you----
    Secretary Chao. I understand that is not this Chamber, but 
I wanted to bring that up, since you asked for an explanation.
    Ms. Norton. Yes, it is not this Chamber, I think it is the 
administration. But whoever it is, I congratulate you----
    Secretary Chao. But having said all of that, I do have good 
news for you. So hopefully the TIGER grants will be coming out 
soon. But we do have to notify the appropriators first, so they 
will get that first.
    Ms. Norton. When do you expect that to occur, Madam 
Secretary?
    Secretary Chao. Hopefully this week.
    Ms. Norton. Thank you very much.
    Secretary Chao. Soon, soon.
    Ms. Norton. That is very good news.
    Secretary Chao. Very soon.
    Ms. Norton. I would dare say----
    Secretary Chao. And then----
    Ms. Norton [continuing]. Almost everybody on this platform 
has an interest in those grants. Let me ask you about----
    Secretary Chao. Right. On the INFRA, let me just mention 
the INFRA grants, also. So the TIGER and the INFRA grants, and 
perhaps this is something that you can take a look at, were 
actually put under the FAST Act, under a new office in the 
policy office, which actually is not an operational office. So 
they have to do the TIGER grants first, and then they can turn 
to INFRA, and hopefully we will get that out probably by the 
beginning of June, or, let's say June, beginning of the summer.
    Ms. Norton. You have given us very welcome information on 
that.
    Look, the interstate, of course, is a product of the 
Eisenhower administration. It is one of the fairest and most 
progressive ways to distribute money. And yet the President's 
infrastructure plan looks like it discriminates against most of 
the country, 52 percent of the country, which provides most of 
the GDP, because of the way in which the plan provides money 
for the rural areas. It looks like it reverses what we have 
always done.
    Eighty percent of the money for everybody--except, of 
course, the rural areas--got even more subsidy, but 80 percent 
came from the Federal Government, 20 percent came from the 
States. And it looks as though you have reversed that and 
provided $40 million in the first year for rural areas, with 80 
percent, and suburban and big cities, where all the congestion 
is, get 20 percent.
    Why have you reversed the age-old way in which we 
distribute highway funds, the formula that has worked now for 
75 years?
    Mr. Shuster. Secretary, go ahead and answer that, and then 
we will move on.
    Ms. Norton. Can't she at least respond?
    Mr. Shuster. That is what I said, the Secretary can answer 
the question and then we will move on.
    Secretary Chao. The 80/20 interstate formula, the 80/20 
formula, applied only to interstate. As mentioned, the Federal 
role, the Federal Government owns 10 percent of the highways, 
the roads, the bridges.
    Ms. Norton. The States have to take care of the rest, Madam 
Secretary.
    Secretary Chao. The rest are actually from the States.
    Ms. Norton. We, the Federal Government, we only take care 
of the Federal infrastructure.
    Mr. Shuster. Ms. Norton, your time has expired. Please 
allow the Secretary to finish, and thank you.
    Secretary Chao. My only point was it is that the 80/20 
formula applies only to the interstate highways.
    Mr. Shuster. Thank you. And now I will recognize Mr. 
LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. Madam Secretary, 
thank you for being here today. I have the privilege of 
chairing the Aviation Subcommittee, and the honor of 
representing the Federal Aviation Administration's flagship 
Technical Center, which I am sure you know is responsible for 
all safety, security, research, and development, and the 
extraordinary work that is done by more than 3,500 people at 
that location for aviation in America.
    I know your opening statement was limited, and there are so 
many needs for infrastructure, but I didn't hear anything 
referred to about what we are doing with aviation, a major 
economic component and driver for our Nation. Specifically, I 
am hoping you can address three areas that I think are critical 
to the future of aviation, and the FAA research, engineering, 
and development account, a proposed cut of more than $100 
million. I mean it basically freezes them and puts them dead in 
the water.
    UAS [unmanned aircraft systems] is a growing, growing area 
in our Nation, which requires a lot of oversight and a lot of 
attention. And the UAS research account is cut to a fraction of 
what it has been in previous years, when the problem hasn't 
been as big.
    And the last one is the FAA Technical Center laboratory 
facility, which is located completely at the tech center, that 
that account is cut by one-third. And if we are going to stay 
at the cutting edge of aviation for the United States of 
America, I don't know how we can withstand those kind of cuts, 
and I am hopeful you might be able to give me some insight in 
how we are going to try to deal with this and restore that.
    Secretary Chao. Thank you for those questions. I am sorry 
that we didn't have a chance to visit the facility that was in 
your district.
    Mr. LoBiondo. The invitation is wide open for you.
    Secretary Chao. Thank you. And for some reason we somehow 
could not. We had a date, but then it didn't happen.
    Mr. LoBiondo. Right.
    Secretary Chao. Aviation, obviously, is very important. The 
chairman's proposal on air traffic control legislation was a 
seminal piece that could have improved air travel, which the 
administration supported. But unfortunately, it did not garner 
enough support within this Chamber. And so that was abandoned.
    On the research, the FAA has the second largest budget in 
the Department of Transportation. The Department of 
Transportation has a budget of $77 billion. Highway is a major 
portion for the roads, for the Interstate Highway System. And 
the next biggest chunk is to aviation. And we actually have a 
research office within the Office of the Secretary. And so 
there needs to be some coordination and some improvement in 
ensuring that the projects that are being done by the research 
office and the Office of the Secretary, which is the rest of 
the Department, and the FAA are actually not redundant, and 
that they are not duplicative, either.
    On the issue of UAS, I am very, very much a supporter of 
autonomous vehicles, unmanned aerial systems. We are actually 
focusing a great deal on it. But again, there is actually a 
great deal of research money, but the research money is not 
used very well. And so we are in the process of trying to 
figure out where is all this money going, how is it achieving 
the stated purposes of the Department's mission.
    And the third one I forgot. What did you----
    Mr. LoBiondo. Well, the third one is the----
    Secretary Chao. Oh, airport grants?
    Mr. LoBiondo. The technical center laboratory facility.
    Secretary Chao. Oh, right. I don't have an answer for that, 
and so I will look into that. But this is obviously of concern 
to you, and we can talk more.
    Mr. LoBiondo. Well, if you have the opportunity to visit 
the technical center, you will see the unique laboratories that 
exist nowhere else in the country, and the engineers that are 
doing the work there that, in many cases, cannot be duplicated 
anywhere else. And hopefully that will help influence part of 
how you feel about this.
    But thank you very much; I yield back.
    Mr. Shuster. I thank the gentleman. And Mr. Larsen is 
recognized.
    Mr. Larsen. Thank you, Mr. Chairman. And Secretary Chao, 
thank you for coming to help us out today. I have a couple 
questions. One is a local problem, a couple others are about 
the proposal, itself.
    The first is related to New Starts, and specifically Sound 
Transit and our Lynnwood Link. We got an FFGA [Full-Funding 
Grant Agreement] awaiting some help from you all for only 38 
percent of the project itself. So we are putting in 62 percent 
of it. This is for Lynnwood Link, extends light rail into 
Snohomish County.
    At any rate, for the second year the administration's 
proposed budget calls for winding down the capital investment 
grant program by limiting funding only to projects that already 
have signed FFGAs. It runs counter to the FAST Act of 2015, 
which authorizes funding for CIG. So I was wondering when you 
would anticipate your department signing FFGAs for approved CIG 
projects, which Lynnwood Link is.
    Secretary Chao. Well, the administration's budget says that 
if the projects are not already in line to receive FFGAs, then 
we cannot sign new ones. But obviously, there are aspects of 
the budget that the Congress is going to disagree with, and so 
we look forward to working with the Congress.
    Mr. Larsen. All right. And that gets to my second question, 
the other point, because part of the administration's proposal 
on infrastructure is to encourage local government, State 
governments, the local funding entities, to raise their own 
dollars. What you are proposing, it puts them in line to get 
Federal funding. Help yourself, and then they will give you 
that Federal help. That is literally what the administration 
proposes for its infrastructure package, in part, which is what 
we are doing in the Pacific Northwest.
    As recently--for the next phase of Sound Transit, where we 
all taxed ourselves $54 billion over the next 5 million years, 
I think is what I am paying, for a long, long time, and yet 
there are zero dollars proposed in the administration's budget 
to support that kind of activity because you want to move to a 
different system. I just don't think you need to move to a 
different way of helping out local entities that are already 
doing what you are asking them to do. There is an inconsistency 
there. It is certainly an issue I am going to continue to 
pursue, as we work with you all on trying to improve the 
administration's proposal.
    As well, I just want to note that Jimmy Duncan led a panel 
here a few years back on public-private partnerships. And we 
concluded--and Mike Capuano, who is here, was the cochair--that 
P3s are not a silver bullet, but there is room for P3s, 
depending on the kind of infrastructure.
    And I guess I would offer to you that if the administration 
can be more clear about where you think P3s can help best, 
there might be a different kind of model for airports than it 
is for roads, bridges, highways, and it might be a different 
kind of model for water or sewer than it is for rail, as 
opposed to trying to package it all as what comes across as one 
big P3 package, which I don't think is helpful to you all, and 
it is not helpful to us to help you, because I believe there is 
room--maybe not as much as the President believes, but there--I 
believe there is some room. I just offer that, as well.
    Secretary Chao. Thank you.
    Mr. Larsen. Yes, sure. And then finally--maybe not finally, 
but we have talked about the gas tax, the user fee. Washington 
State has the third highest gas tax in the country. But I would 
like to remind my colleagues that we are tied for first in the 
lowest income tax in the country, as well, of zero. So it is a 
balance of funding and how you fund your Government, how you 
fund to do things.
    But I am just wondering how you would characterize the 
administration's position on raising the Federal portion of the 
gas tax. How would you characterize that today?
    Secretary Chao. Well, one reason I am here with no 
solutions on the pay-fors is because we have not yet come to a 
resolution on that. So I think the good news is, for certain 
people, that everything is on the table, and that this 
administration is open to considering all revenue sources. Some 
people are not going to be happy at that.
    But as of now, everything is on the table, and there has 
been no resolution on how to pay for this proposal, which is 
why, once again, we send principles up, we did not send 
legislative language.
    Mr. Larsen. Right.
    Secretary Chao. We really do want this to be a bipartisan 
effort, and we need the help and counsel of the Congress on 
these and many other issues, as well.
    Mr. Larsen. All right, thanks. And I look forward to 
hearing back from you specifically a little bit more on the CIG 
grant, FFGAs for Sound Transit. Thanks a lot.
    Mr. Shuster. I thank the gentleman. Now I will recognize 
Mr. Barletta for questioning.
    Mr. Barletta. Thank you, Mr. Chair.
    Secretary Chao, thank you for being here today to talk 
about the President's infrastructure proposal. I commend both 
of you, you and the President, for recognizing how important 
America's transportation systems are to maintaining our world-
class economy.
    I am going to begin today by venturing a bit outside what 
we traditionally think of when we talk about infrastructure. 
Last week, following the tragic shooting in Parkland, Florida, 
I called for U.S. schools to be added to the current categories 
of critical infrastructure. These 16 sectors are considered so 
vital to our Nation's well-being that the Federal Government 
works with State and local partners to ensure their security 
and resilience. I believe our schools should be the 17th 
critical infrastructure.
    Secretary Chao, what ways can the Department of 
Transportation assist in ensuring our schools are treated like 
critical infrastructure, and our kids get the protection that 
they need? Surely, if we treat our banks as critical, and we 
defend bureaucrats at the Department of Education with armed 
security guards, we can deem America's children as critical, as 
well.
    Secretary Chao. This is obviously a devastating blow to our 
country. And, as you have seen on television, the President has 
held meetings with survivors, their relatives, parents, and 
relatives that have lost their loved ones. This is a 
devastating blow, and the President feels strongly, very 
strongly, keenly about this issue.
    On the issue of infrastructure and including hardening 
schools to be part of the infrastructure proposal, I would 
bring this back to the White House and to the President.
    Mr. Barletta. Great, thank you. I think that is something 
that we can all agree on, as we debate all these other issues. 
If people can't get into our schools, they can't harm our 
children. So thank you.
    I was pleased to see that the White House's proposal 
included a section on workforce development. Back in December I 
chaired a hearing in the Subcommittee on Economic Development, 
Public Buildings, and Emergency Management that examined ways 
in which the opioid crisis is impacting the workforce and 
economic growth in the Appalachian region, which includes my 
home State of Pennsylvania. What we have seen is that 
individuals in this part of the country who are 25 to 44 years 
old experience mortality rates 70 percent higher than the non-
Appalachian States. Typically, this group includes Americans in 
their prime working years, which has created a significant 
challenge to economic development in the region.
    Recognizing how important a strong workforce is to 
rebuilding our infrastructure, and knowing that opioids are 
devastating that workforce, especially in rural areas, which 
the administration has targeted as a critical area of 
investment, can you speak to how the infrastructure proposal 
will help address this issue?
    Secretary Chao. Well, it is a huge issue. And Secretary 
Acosta in the Labor Department has responsibility for the 
workforce development, workforce retraining part. The 
infrastructure proposal, hopefully, will spark new buildings, 
which will yield good-paying jobs. And we probably will not 
have enough skilled trades workers to be able to address all 
the infrastructure needs when it finally gets all going.
    So the workforce training and retraining part is important. 
And your idea about including or somehow working with these 
communities and populations of people who will certainly be 
benefitted by this, turning around their lives, is something 
that again, I am very interested in. As a former Secretary of 
Labor, I will bring that back also to the White House and to 
Secretary Acosta.
    Mr. Barletta. Thank you. Thank you for your work. I yield 
back.
    Mr. Shuster. I thank the gentleman. I will recognize Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Hello, Ms. Secretary. My question deals with the California 
Senate bill 1, which invests $54 billion over the next decade 
in infrastructure. It is intended to spur the State and local 
investment in the infrastructure. That past major bill of 
legislation was two-thirds vote of our legislation, known as 
Senate bill 1, and provides $54 billion over the next decade.
    Do you support this recently passed legislation? It is 
California's Senate bill.
    Secretary Chao. Unfortunately, I am not very much--I am not 
really up to speed on that. If I may ask to take a look, and 
will be more than glad----
    Mrs. Napolitano. Yes.
    Secretary Chao [continuing]. To answer that question.
    Mrs. Napolitano. And it--my question deals with the lack of 
recognizing that the States that pass infrastructure packages, 
in addition to passing that bill, the county of Los Angeles 
passed two transportation sales tax measures since 2009, 
providing $120 billion over the next 40 years. The voters 
approved with 70 percent of the vote. The most recent sales tax 
was last year.
    Concerning the majority of your plan significantly 
penalizes State and local governments that have raised revenues 
prior to January 2018, not only do States and locals recently 
passed legislation--infrastructure legislation packages score 
poorly when rated by your department, you limit these projects 
to qualify for only 5 percent, or $5 billion, out of the $100 
billion of the new incentives projects program. Why would you 
want to preclude the potentially great projects that have 
already had non-Federal revenues already lined up by 
responsible States and local governments? And don't you think 
your approach to incentivize project sponsors that have not 
passed revenue packages in their States would slow project 
delivery?
    Secretary Chao. I understand the question. The original 
intent was we wanted to recognize what States have done. But 
some States have done things 5 years ago, 7 years ago. It is 
still on the books. So do we take into account and just accept 
what they have done, let's say, in the last 10 years? That, we 
thought, was a little too much. So the current proposal has a 
3-year look-back. And if that is perhaps too long, again, we 
are flexible on that.
    I understand the point that you are making. For certain 
States that have taken the initiative, they have bitten the 
bullet. Why should they be penalized? So the 3-year look-back 
may not be one that they agree with. So we can talk about that.
    Mrs. Napolitano. I would very much appreciate that, Ms. 
Secretary.
    Because your plan calls for 80 percent of a project cost to 
be from State and local sources, we should be allowing States 
and local governments to have local hire preference. When the 
residents of California are voting by a 70-percent margin for 
the bill to raise their own taxes in order to support 
transportation projects, they assume they will be given 
preference in getting those jobs.
    Do you think States should be allowed to give preference to 
hiring their own--and taxpayers when they are paying for the 
vast majority of the project?
    Secretary Chao. That is probably an issue that I have got 
to bring back. Again, there are many other agencies involved in 
this, and I have got to go back to the White House and ask some 
of the other Secretaries, as well.
    Mrs. Napolitano. Well, would you please give us a 
clarification? Because it is unfair if we are paying for the 
improvements and we cannot hire local preference.
    Secretary Chao. I will take a look at that.
    Mrs. Napolitano. Thank you. Another issue is Los Angeles 
County is preparing to host the Nation and the world for the 
2028 Olympic Games. Give us your commitment to make these 
critical transportation projects a priority, potentially 
convening a DOT working group among staff so that the needed 
infrastructure is in place to host a successful Olympic Games.
    Secretary Chao. Well, your mayor has been in to see us and 
other agencies on this issue, as well. So we look forward to 
working with him and also with you.
    Mrs. Napolitano. Very well, thank you. In regards to 
successfully hosting the Olympics, one of the most critical 
projects is the Purple Line subway extension project, which 
will build a new station and subway line to serve UCLA, one of 
the Olympic venues, as well as a planned village for athletes. 
Can you please give us your commitment that you will look at 
it, do everything you can to support the project, ensure that 
it is built on time, and ready for the Olympics?
    Secretary Chao. You are not the only one that has brought 
it up. As I mentioned, your mayor has been very good about 
approaching us on this.
    Mrs. Napolitano. Very good. Thank you, Ms.----
    Secretary Chao. So we will look forward to working with you 
and the mayor.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Shuster. Thank you. Mr. Gibbs is recognized for 5 
minutes.
    Mr. Gibbs. Thanks, Mr. Chairman. Thank you, Madam 
Secretary, for being here today. I am really encouraged about 
the proposal, especially the administration's proposal 
regarding streamlining, and how we can lower costs and do 
things more efficiently. And I just wanted to highlight a few 
things there before I ask some questions.
    But the section 404 permits, the White House language is 
similar to a bill that I have introduced, H.R. 2917, that deals 
with vetoing and preemptively, retroactively vetoing permits. 
And so there is language in there that eliminates duplicative 
oversight by the EPA on the section 404 permits. So that is a 
good thing.
    Another bill I have is H.R. 465, dealing with integrated 
planning. And this bill would really help our local 
municipalities deal with their water and sewer projects. And I 
know the administration supports that, so I appreciate that, 
because I think that is a good way to help bring more 
efficiencies and lower costs and get that infrastructure at the 
municipal level accomplished.
    And another proposal that the White House discussed a lot 
in your package is the WIFIA, the Water Infrastructure Finance 
and Innovation Act, which I sponsored the pilot in WRRDA 2014, 
and along with Congressman Brian Mast, down in front of you, we 
have a bill that increases the funding and reauthorizes the 
program. I know the White House is very supportive of that. It 
is a partnership.
    And then rural broadband, I am really concerned about that. 
A good opportunity--I think we are kind of like where probably 
President Eisenhower was with the Interstate Highway System. If 
we get rural broadband accomplished, how that helps with jobs, 
opportunities, and education across--I just want to highlight 
that.
    In the administration's proposal you talk about a $50 
billion investment to improve infrastructure in rural areas. 
Can you maybe elaborate on how it would come about, how you 
operate that, and what types of projects might be eligible for 
that funding?
    Secretary Chao. We understand that rural America has 
different needs. And so, a specific title is set aside for 
rural America needs. Forty percent of that would be by formula, 
understanding again that, you know, having some kind of a 
public-private partnership won't really work, given the lesser 
density and the volume, the density that is required in a 
public-private partnership. So 40 percent of that would be by 
formula, and about 10 percent, as is currently discussed, would 
be competitively bid.
    If I may also return back to your legislation and give you 
a shout-out about the section 404 and section 402, these are 
not within the Department of Transportation, they are within 
the Army Corps of Engineers.
    Mr. Gibbs. Yes.
    Secretary Chao. And so, as the chairman and others have 
mentioned, that is always a point of great concern on the parts 
of many parties.
    But the section 404 and section 402 permits both require, 
substantially, the same information. And yet they must be 
gathered and then they are conducted separately, sequentially, 
thereby adding unnecessary time lags to the permitting process. 
So thank you for that.
    Mr. Gibbs. Now, you are right, it is not in your 
jurisdiction, per se. But I am sure you have input at the 
administration's level on how important that is. And, of 
course, it was in the President's package, the 50-page document 
I read. And so I think that is a big help.
    Back on the rural infrastructure, the 40 percent--you take 
into account--because a lot of the projects might be smaller or 
harder to find partnership financing, because of just the 
nature of that. So you think that formula takes into account 
enough for private institutions or private entities to want to 
get involved in that, because the costs are higher and the 
returns might not be as well?
    Secretary Chao. Well, that actually would be up to the 
Congress because, again, we sent guidelines.
    Mr. Gibbs. OK.
    Secretary Chao. It is supposed to be formula. But beyond 
that, there are not very many details. So we look forward to 
working with you.
    Mr. Gibbs. I am just about out of time.
    Secretary Chao. The Congress on that.
    Mr. Gibbs. I just wanted to mention I always think it is a 
good priority if the administration identifies certain projects 
that are national--significant importance or regional projects 
that have economic or national defense issues that we--should 
be addressed. And so I would just encourage that.
    Things like, you know, certain infrastructure in certain 
areas that are critical to our economy and our national 
security should be prioritized by the administration. So I look 
for leadership from the administration to help identify those 
and push for those where States might not be able to address 
those as well.
    Secretary Chao. Thank you.
    Mr. Gibbs. Thank you, I yield back.
    Mr. Shuster. I thank the gentleman. Now I recognize Mr. 
Lipinski for 5 minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank you, 
Madam Secretary, for all your years of service to our 
Government.
    I am glad that we have now got the conversation going on 
the infrastructure plan. And I thank the chairman for his work, 
and I am very hopeful that we could move forward with a 
bipartisan plan here in this committee. I know the chairman 
wants to do that, Ranking Member DeFazio does, I think we all 
do. So I am very hopeful that we can get that done.
    On the INFRA grants, I know there is $1.5 billion there. 
Hopefully those will get out in June and not later. I know 
there is a project that everyone knows I always talk about, the 
CREATE [Chicago Region Environmental and Transportation 
Efficiency] Program, the rail modernization program in Chicago 
that is--you know, 67 percent is both--comes from private 
funding, State and local funding. So I think that fits 
perfectly with what the administration is talking about. I hope 
to see that funding come.
    Another big issue in Chicago is public transit. In the 
transit system our capital needs are very, very big. The 
capital needs would account for, you know, 18 percent of the 
entire pot of Federal funding in the administration plan, the 
$200 billion.
    I know Mr. Larsen had talked about the Full-Funding Grant 
Agreements, the situation there. And I wanted to make a point 
that it is important that transit is eligible for the funding, 
and that there has to be a way that--I believe that transit can 
get funded. It is very tough for transit to be able to come up 
with the 80 to 90 percent for a transit project, a locality to 
come up with that.
    Does the administration see those projects, transit 
projects, as being possible through the administration's plan? 
And if Congress comes up with a different plan that is much 
more supportive of transit funding, will the administration 
support that coming out of Congress?
    Secretary Chao. You ask very good questions.
    And number one, I would say we want to work with the 
Congress. So that is the basic premise.
    We do have a disagreement about the amount of support for 
transit. But I would hope that we are open to discussing these 
projects. And currently, in the principles that were sent up to 
the Hill, there is no disparaging positioning of transit versus 
other projects. If anything, once again, it leaves it up to the 
local and State governments to select what projects they want. 
So if they want transit versus something else, it is up to 
them.
    Mr. Lipinski. Thank you. It is going to be very tough to 
come up with the 80 to 90 percent on transit. But let--I want 
to move on to TIFIA [Transportation Infrastructure Finance and 
Innovation Act] and RRIF [Railroad Rehabilitation and 
Improvement Financing]----
    Secretary Chao. Yes.
    Mr. Lipinski [continuing]. Which are very good programs, 
and I think the administration agrees with that. They have been 
undersubscribed, though. What is the administration going to do 
to make those more attractive, both TIFIA and RRIF?
    Secretary Chao. Only one of them is undersubscribed. And 
so, in the infrastructure proposal there are recommendations to 
broaden the eligibility, so that more parties can participate. 
We think that that would probably allow more usage of those 
programs.
    Mr. Lipinski. Because I know there has been an issue with 
RRIF that has made it unattractive for many of the short line 
railroads to use that. But that is something we could discuss 
further later.
    I want to follow up on RRIF. The former administration, 
Obama administration, said that they would follow Buy America 
policies for RRIF. Does the current administration also believe 
that Buy America needs to be followed for the RRIF program?
    Secretary Chao. I think this administration, this President 
in particular, feels very strongly about that. So we have 
actually been very, very tough on it, the Buy America 
provision. It is not within the infrastructure proposal, if 
that is what is being discussed. But it is an overriding 
statute that all of us have to abide by, and do abide.
    Mr. Lipinski. Thank you. I will yield back.
    Mr. Shuster. I thank the gentleman. Now I will recognize 
Mr. Webster for 5 minutes.
    Mr. Webster. Thank you, Mr. Chairman. Thank you, Secretary, 
for being here today. I appreciate your willingness to come and 
testify about something that is an important issue for all of 
us.
    I am from Florida, central Florida. We depend on 
transportation as a huge part of our economic engine when it 
deals with tourism. I would like to keep going on the TIFIA 
program, as we are, especially in central Florida, big users of 
TIFIA.
    When you were talking about broadening the ability of 
States and local governments to apply for a TIFIA loan, is 
there a pecking order that is going to be there? Because in our 
particular case, three of the big projects were the tunnel down 
in Miami to the port; I-4, which is an ultimate project, which 
is about 6 years in the making; and then there is also the 
Central Florida Expressway Authority, which had a large TIFIA 
loan, which will complete the beltway around Orlando. In each 
of those cases, that loan is going to be paid back by new 
money, in that it is going to be paid back by tolls. And there 
are some other projects that are the same.
    If those that can apply has broadened, will there still be 
given some sort of nod to those that, number one, provide a 
huge chunk of that money from the State or local government? 
And number two, it is guaranteed by revenue--it would be a 
revenue-producing project, as opposed to those who may just pay 
it back from their regular State transportation trust funds, or 
something like that. It is not real new money, it is just 
advancing a project.
    So, anyway, my question is will there still be given some 
priority to those who are going to bring new money into the 
system and pay it back with new money, which will be recurring 
each year, even after the loan is paid back? Anyway, that is my 
question.
    Secretary Chao. The simple answer to all of these questions 
is yes. But I want to get you a definitive answer. So if you 
will allow me to go back and confirm that, I will do so. 
Because the repayment portion, we just want to make sure it is 
repaid. So whatever sources, we would----
    Mr. Webster. Well, my only----
    Secretary Chao. We just want to make sure that it is going 
to be solid.
    Mr. Webster. There is an advantage to the Federal 
Government in that there is new money being interjected that 
won't end when that TIFIA loan is repaid, and that it is going 
to produce--and in our State, the monies that are collected 
from tolls can be used to enhance that particular 
infrastructure project--in this case, a road--to bring in more 
traffic, more money, and more things can be handled, even with 
the local level, without any Federal participation and/or 
minimal participation through maybe another TIFIA loan.
    Anyway, that is--I just don't want to lose any kind of 
positioning to those who would not be having a--I know you want 
to get the money paid back, I got that. But on the other hand, 
there are two ways. And the one that would produce money seems 
to me would be better.
    Secretary Chao. Yours is not the only example. So let me 
get you----
    Mr. Webster. OK.
    Secretary Chao [continuing]. A firm answer, if you would.
    Mr. Webster. Thank you. I yield back.
    Secretary Chao. Not at all. Thank you.
    Mr. Shuster. I thank the gentleman. And next is Mr. Sires, 
recognized for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing.
    Madam Secretary, thank you for being here. I represent the 
district in New Jersey where the two tunnels are.
    Secretary Chao. Yes.
    Mr. Shuster. Can you speak into the mic a little bit more?
    Mr. Sires. Where the two tunnels are located, the Lincoln 
Tunnel and the Holland Tunnel. Obviously, you know they are 
over 100 years old. And obviously, they were hit very hard by 
Hurricane Sandy. We have over 200,000 riders a day that use 
these tunnels. The Northeast Corridor Commission estimates that 
the economy will lose about $100 million a day if something 
happens to these tunnels.
    You and I were both present when Governor Christie and 
Governor Cuomo had a meeting with the President regarding the 
Gateway tunnel. And everybody there left very enthusiastic. The 
President seemed to be supportive, including yourself, of this 
project. But lately it seems like this project has come under 
attack. Let me just state a couple of things.
    First, rejecting the 50/50 partnership agreement between 
New Jersey, New York, and the U.S. Government, that was an 
agreement that was done on the Obama administration because of 
the necessity that these tunnels be redone.
    Then, trying to eliminate the capital investment grant 
funds, and trying to eliminate funding for Amtrak. And now 
there are reports the President is appealing to Speaker Ryan to 
pull all the funding for the Gateway tunnel.
    I would just like to know what happened. We left there so 
enthused, you were enthused, the President was enthused. All of 
a sudden this is a project that is not such a priority, 
especially when there are 52 million people in this region and 
it generates about 20 percent of the economy in this region.
    So can you give me something that I can be enthusiastic 
about? Because I really am very disappointed in the President. 
We go there and we thought we had something good going.
    Secretary Chao. I am very glad to answer those questions.
    Mr. Sires. It is just one.
    Secretary Chao. Number one, on September 7, 2017, when this 
meeting occurred at the White House, we were very polite. We 
were cordial. There was no commitment at all.
    Mr. Sires. Well, I--let me say you were not----
    Secretary Chao. The attendees of that meeting----
    Mr. Sires. I didn't say you were not cordial or polite. And 
I didn't say there was no--I said there were--everybody left 
there very enthusiastically.
    Secretary Chao. The attendees of that meeting exited that 
meeting and spun the results of that meeting as they wanted the 
meeting to be. There was no commitment from that meeting. As I 
mentioned, it was a cordial, respectful----
    Mr. Sires. So are you telling me now that there is no 
commitment----
    Secretary Chao [continuing]. Courteous meeting----
    Mr. Sires [continuing]. To do this tunnel?
    Secretary Chao. If I may proceed, because there has been so 
much misinformation about this, I am so pleased to be given 
this opportunity to clarify.
    Number one, there are these Gateway projects, there are 
nine of them. They are collectively called Gateway out of 
convenience. And the total bill is $30 billion. New York and 
New Jersey are two of the richest States in the country.
    Mr. Sires. I know.
    Secretary Chao. They are putting in less than 5 percent----
    Mr. Sires. We send a lot of money to the Federal 
Government.
    Secretary Chao. They are putting in less than 5 percent on 
one, and zero in the other. There is no funding agreement. 
There has never been a funding agreement.
    Secretary Foxx said at a political rally in the heat of the 
campaign in 2016 that he was going to help. There is no 
documentation on a Federal funding agreement. There is no 
paperwork on that issue. And, in fact, there is no pending 
application.
    So I don't want to sound hostile, sir----
    Mr. Sires. So let me get this straight. I have 5 minutes--
--
    Secretary Chao. But----
    Mr. Sires. Madam Secretary, I have 5 minutes.
    Secretary Chao. It is just so inaccurate----
    Mr. Sires. There is--if there is some sort of help that we 
can expect in this region, because these two tunnels are 108 
years old. And if they collapse, the entire country is going to 
pay a price for this.
    Secretary Chao. The----
    Mr. Sires. So I was wondering----
    Secretary Chao. New York and New Jersey----
    Mr. Sires [continuing]. If you support any kind of help for 
these tunnels.
    Secretary Chao. New York and New Jersey----
    Mr. Sires. Because I have been there----
    Secretary Chao [continuing]. Can come up with larger than 
zero or 5 percent.
    Mr. Sires. Well, right now they were willing to commit 50 
percent of the project.
    Secretary Chao. The rest of the money is going to take 
every other transit project funding----
    Mr. Sires. So I go back to my district----
    Secretary Chao [continuing]. From all across the State, all 
across the country.
    Mr. Sires [continuing]. That this Federal Government is not 
going to help us.
    Secretary Chao. This is not going to be a heated 
discussion.
    Mr. Sires. No, this is not going to be a heated discussion. 
I just want to know what I bring back to my district.
    Secretary Chao. It is going to take money from every other 
transit project in America.
    Mr. Sires. OK.
    Secretary Chao. That is just a fact.
    Mr. Sires. We already raised the gas tax 23 percent to deal 
with the transportation trust fund. And it is very expensive to 
go from New Jersey to New York----
    Secretary Chao. Well, there is a lot of misinformation on 
this. And please understand----
    Mr. Sires. Madam Secretary, obviously----
    Secretary Chao [continuing].New York and New Jersey have 
got to up----
    Mr. Sires [continuing]. I am going to bring back to my 
district that we are not getting any help.
    Secretary Chao [continuing]. Their local share.
    Mr. Sires. Thank you.
    Mr. Shuster. The gentleman yields back. Mr. Denham is 
recognized for 5 minutes.
    Mr. Denham. Thank you, Mr. Chairman.
    Madam Secretary, welcome to the committee today. We have 
talked a lot about the $1 trillion that we would all like to 
see, even more than $1 trillion. One of the ways we do that is 
through financing. And as we have had a number of discussions 
in this committee about user-pay projects, there is not a 
bigger user-pay project than water storage.
    I am a ratepayer. Every time I turn on that tap, I am 
paying for that water storage. If we can build water storage in 
California and solve our water crisis, it can be the biggest 
infrastructure project in the country.
    And we have done some new things with WIFIA. We have a 
number of financing programs that work well. My New WATER Act 
would expand that to reclamation projects. The principles are 
within the President's working document.
    I wonder if you could describe where the decision is on 
where that is housed, and whether or not you think that is a 
good financing tool for not only infrastructure projects, but 
specifically water storage.
    Secretary Chao. Unfortunately, that is the EPA 
Administrator's portfolio. So that has to be more properly 
addressed to him, and I will be more than glad to go back to 
the White House and bring back your concerns to him.
    Mr. Denham. Thank you. Well, we would certainly like to see 
that housed under DOT, and WIFIA, as well. But the 
reclamation--the EPA will be out in my district, we are going 
to have that discussion. But this is a big financing tool to be 
able to build big water storage in California and elsewhere.
    Let me switch to another issue that pertains to water 
storage. Out of this committee we have passed a number of 
pieces of legislation, including an amendment to the FAST Act 
which deals with NEPA reciprocity. We want to, obviously, deal 
with the highest environmental quality policies across the 
country. We just don't want to do it twice. And so, California, 
we have been utilizing our exemption on NEPA to just deal with 
CEQA [California Environmental Quality Act] so that you are not 
seeing the long delays and lawsuits on the permitting process.
    Right now the program is currently limited to DOT projects. 
Can you discuss about how we would use these and expedite a 
project delivery for surface water storage projects and the 
merits of expanding this type of policy to water agencies, as 
well?
    Secretary Chao. Well, so much of the permitting process 
spans over so many departments and agencies, which is why, when 
we talk about infrastructure, there needed to be a multiagency, 
``One Federal Decision'' process, and that is why the President 
made that announcement with ``One Federal Decision'' with one 
Federal agency, one Federal cabinet, kind of being first among 
equals to take the lead in some of these permitting issues.
    We are in the process of signing an MOU [memorandum of 
understanding] with the various departments. And we hope to 
have that pretty soon. But the President has been pretty 
aggressive in mandating that he wants the permitting process to 
be shortened.
    And again, the permitting process is not the NEPA process 
necessarily. And again, we don't want to compromise the 
environment at all. But how do we have a more commonsensical 
approach to streamlining the permitting process so that 
redundant or duplicative processes are somehow resolved?
    Mr. Denham. Well, thank you. My time is short here, but let 
me just say how excited I am about having a large 
infrastructure project that could not only solve California's 
water crisis, but really expand our ports, expand our highways, 
really expand goods movement as we create more jobs.
    We will continue to partner with you to find new revenues. 
Obviously, we would like to see our numbers as high as we can, 
but also want to have the creativity to use our current 
financing systems and streamline these projects. To take these 
projects--not only taking them 10 years, but--in some cases, 
including California water storage, it is not only multidecade, 
it is generational gaps in new water storage.
    And so we are looking at those opportunities to expedite 
these projects and actually get them built not only in our 
lifetime, but get them built in the next couple of years. So 
excited about the new proposal, and want to find new ways that 
we can work together, and I yield back.
    Secretary Chao. Thank you.
    Mr. Shuster. I thank the gentleman. I now recognize Mr. 
Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And I appreciate your 
testimony today, Secretary Chao. And I noticed that in your 
written testimony submitted for the record, as well as your 
oral testimony today, you failed to make any mention whatsoever 
as to public transportation. That is a glaring omission. Can 
you explain why you have not testified and not spoken on public 
transit? Is it not important?
    Secretary Chao. Well, it is not excluded.
    Mr. Johnson. But you didn't mention it, though.
    Secretary Chao. I didn't mention highways too much, either.
    Mr. Johnson. Well, you did mention----
    Secretary Chao. But your point is well taken.
    Mr. Johnson [continuing]. Highways, but you didn't mention 
transit.
    Secretary Chao. It is whatever is the infrastructure needs 
of the local communities. And again, we leave that to others, 
we don't express a preference for one or the other. We leave it 
up to the local communities. But I take your comment to heart.
    Mr. Johnson. Well, let me ask you this.
    Secretary Chao. Yes?
    Mr. Johnson. Do you agree that public transit is and should 
be a tool in the infrastructure toolbox?
    Secretary Chao. Sure, if the local community wants it.
    Mr. Johnson. And do you----
    Secretary Chao. It is up to them to prioritize.
    Mr. Johnson. OK. And do you believe that public transit 
systems significantly improve economic vitality and 
opportunities for small businesses?
    Secretary Chao. In urban areas, where there is density, and 
where there is enough traffic, yes.
    Mr. Johnson. And it allows or it enables these local 
communities to prosper and grow. Isn't that correct?
    Secretary Chao. Well, sometimes they can't pay for the 
transit systems, and then it is a problem.
    Mr. Johnson. Well, the Federal Government has always seen 
that it is important in the local communities that they have 
support for public transit. And you agree with that, don't you?
    Secretary Chao. No, I think it actually varies. Some 
administrations----
    Mr. Johnson. But you don't----
    Secretary Chao [continuing]. Support it more so than 
others.
    Mr. Johnson. You don't think public transit is something 
that the Federal Government should invest in?
    Secretary Chao. Well, the Federal Government does invest in 
Federal transit. There is something called----
    Mr. Johnson. But you don't think----
    Secretary Chao [continuing]. The Federal Transit 
Administration.
    Mr. Johnson. But you don't think that it should, going 
forward, because you left it out of----
    Secretary Chao. No, I didn't say that.
    Mr. Johnson. But you left it out of----
    Secretary Chao. You are asking me to prefer transit over 
something else, and I am saying this is a local decision.
    Mr. Johnson. I am just asking you to recognize it in your 
comments to our committee, and you failed to do so.
    Secretary Chao. I don't understand that.
    Mr. Johnson. And I am asking you why.
    Secretary Chao. I didn't mention other modes of 
transportation like aviation. I was criticized on that, as 
well.
    Mr. Johnson. Well, do you think public transit is 
important?
    Secretary Chao. In certain cities where there is enough 
volume and density to support it, it can be a viable 
alternative transportation system.
    Mr. Johnson. Well, what is the Trump transportation plan 
insofar as public transit is concerned? What is the plan?
    Secretary Chao. Well, we have a budget for the Federal 
Transit Administration.
    What is the budget [turning to ask a person seated behind 
her]?
    Mr. Johnson. Is that the one that is being cut----
    Secretary Chao. There is a Federal Transit Administration 
with a full budget, and we support----
    Mr. Johnson. But the budget is----
    Secretary Chao [continuing]. All the transit programs 
there.
    Mr. Johnson. Budget is being cut by 19 percent, correct?
    Secretary Chao. Well, that indicates that sometimes 
administrations don't fully agree with all the transit 
projects.
    Mr. Johnson. Well, you are pretty good at jumping around my 
questions.
    Secretary Chao. No, no, I am trying to be cooperative and 
answer.
    Mr. Johnson. Yes, no, you are not. Let me ask you this 
question. The Trump infrastructure proposal would turn the 
funding formula on its head by requiring State and local 
governments to cough up 80 percent of the cost of 
infrastructure. Do you believe that it is realistic to believe 
that cash-strapped municipalities in rural America would be 
able to squeeze sufficient revenues from State and local 
taxpayers to pay the 80-percent share of the cost of 
infrastructure improvements?
    Secretary Chao. Well, as I have mentioned, the 80/20 
applies only to intrastate projects. That has always been the 
case. The rest of the transportation systems in the country is 
10 percent owned by the Federal Government, 90 percent owned by 
the States.
    Mr. Johnson. Well, you are not answering my question.
    Secretary Chao. And the existing programs, the budget still 
stays. All the formula grants and the FAST Act, that all stays. 
We are----
    Mr. Johnson. Madam?
    Secretary Chao. Yes?
    Mr. Johnson. Madam, my question is----
    Secretary Chao. Yes?
    Mr. Johnson [continuing]. Do you believe that State and 
local governments will be able to cough up 80 percent of the 
share of the cost of infrastructure improvements? You believe 
they will be able to squeeze----
    Secretary Chao. Well, that is the question of pay-fors. And 
as I mentioned----
    Mr. Johnson. Do you think----
    Secretary Chao [continuing]. We will work with Congress on 
that.
    Mr. Johnson. Do you think the State and local taxpayers can 
afford to be squeezed?
    Secretary Chao. Well, Federal money is not free. Federal 
money is taxpayers' money, as well. It is Federal monies, 
actually taxpayers' money coming from the States and 
localities. They come up to us, we send it back to the----
    Mr. Johnson. I got one last----
    Secretary Chao [continuing]. Localities and to the local 
and State governments with Federal strings attached.
    Mr. Johnson. One last----
    Secretary Chao. That is what Federal dollars are.
    Mr. Johnson. One last question.
    Secretary Chao. Yes, of course.
    Mr. Johnson. In your written testimony you state that the 
guiding principle of the Trump infrastructure plan is the use 
of Federal dollars as seed money to incentivize infrastructure 
investment by State and local governments. My question is how 
does the Trump infrastructure plan propose to incentivize 
private-sector investment in rural areas?
    Secretary Chao. By the dint of the Federal Government 
getting involved in certain projects, they offer the imprimatur 
of the weight and gravitas of the United States Government. And 
with that, that actually improves the quality of some of the 
projects. And more private investors are willing to enter 
because they think there has been a ``seal of good 
housekeeping.''
    And that is why, again, the Federal Government's entry, or 
being involved in a transaction, is helpful to helping the 
private sector enter.
    Mr. Johnson. Well, I [inaudible]----
    Mr. Shuster. The gentleman's time has expired. I thank the 
gentleman.
    Mr. Johnson [continuing]. Answer my question.
    Mr. Shuster. Thank you.
    Mr. Johnson. Thank you.
    Mr. Shuster. I would also like to remind the gentleman. 
Under the formula, the trust fund formula, 80 percent goes to 
highways, roughly 20 percent goes to transit, and States have 
the ability today--which, of course, we in rural Pennsylvania 
are always complaining that the Governor flexes dollars, which, 
under the law, he can do, to Philadelphia.
    So there is money to be spent on--again, we haven't talked 
about changing that formula, I don't believe, in the 
President's plan. Just new ideas.
    So again, with that, I----
    Mr. Johnson. Well, I thank the chairman for answering my 
question.
    [Laughter.]
    Mr. Shuster. You are quite welcome. I recognize Mr. Davis 
for 5 minutes.
    Mr. Davis. Thank you. Thank you, Mr. Chairman and Madam 
Secretary. I appreciate you being here to talk about investing 
in our Nation's infrastructure. And I also appreciate the 
cooperation and the responses that you have given to some of my 
colleagues' previous questions. And I disagree with some of the 
assertions that may have been made earlier.
    I actually appreciated the White House's infrastructure 
proposal. And kind of piggybacking on to my colleague, Mr. 
Johnson's, comments on rural America, I like the fact that some 
of those funds in the proposed plan were dedicated to rural 
America. For years we have seen rural roads and bridges lag 
behind due to funding constraints and the lack of access to 
funds.
    For example, prior to MAP-21, all bridges were eligible for 
funding under what was then the Highway Bridge Program. 
However, this program was eliminated in MAP-21, with the 
majority of its funding going into the National Highway 
Performance Program for which off-system bridges are not 
eligible.
    This means that today 77 percent of all bridges in the U.S. 
are only eligible for funding under the Surface Transportation 
Block Grant program. This leads to many off-system bridges in 
rural counties like those in my district being years, sometimes 
decades, behind in the maintenance that needs to be conducted.
    So again, thanks for ensuring rural infrastructure was 
prioritized in this proposal. And I would also suggest that 
some of these dollars be allocated directly to local 
jurisdictions who can best identify their own infrastructure 
priorities. Under the administration's proposal, the 80 percent 
of the funding set aside for rural formula dollars would go 
directly to Governors. It would make sense to me to use the 
Surface Transportation Block Grant program, which suballocates 
more than 50 percent of the formula to locals, as a model. 
Because, unfortunately, local infrastructure priorities, as 
Chairman Shuster just mentioned, don't always align with our 
Governors, regardless of which party may be in charge.
    Secretary Chao, do you agree that we should include some 
level of local control of rural infrastructure dollars?
    Secretary Chao. In fact, the President's entire 
infrastructure proposal leaves the priority of projects to the 
State and local leaders. So we don't say what project is 
preferable over another. We don't say which financing or 
funding mechanism is preferable. We are basically saying it is 
really up to the local and State leaders.
    Mr. Davis. And I understand that. But, as Chairman Shuster 
mentioned, as I mentioned, sometimes our Governors' priorities, 
our State officials' priorities, may be overtaken in the 
nonrural areas. So thank you for your dedication to rural 
America.
    I want to start my second question by noting that I support 
the DOT's electronic logging device rule, moving forward, as 
the rule was authorized by Congress. And much of the trucking 
industry has already invested millions into coming into 
compliance.
    I do, however, also believe that there are legitimate 
concerns for certain industries who are working to come into 
compliance. And this includes the livestock hauling industry.
    Madam Secretary, can you describe FMCSA's [Federal Motor 
Carrier Safety Administration's] outreach to the agriculture 
industry leading up to the implementation of the ELD rule?
    Secretary Chao. This is a very important rule, especially 
with reference to livestock. And I have heard from multiple 
numbers of rural lawmakers on this issue.
    Mr. Davis. Well, thank you----
    Secretary Chao. FMCSA supposedly has, and I have been told, 
and if you are not satisfied with it, please tell me, because I 
will go back and reinforce this point with them. I have been 
told that they have held a number of outreach and educational 
sessions to try to explain the 90-day waiver that has been 
issued for livestock, and how this particular rule functions.
    But again, if you are not satisfied with that, please let 
me know and I will----
    Mr. Davis. We will have our local groups get back with us, 
and we will reach out to DOT.
    Secretary Chao. Right.
    Mr. Davis. So you are saying the 90-day waiver has already 
been implemented.
    Secretary Chao. Yes.
    Mr. Davis. So eight livestock groups submitted a letter, 
asking for a waiver, and that has already been submitted?
    Secretary Chao. The last time was December 18th, so it was 
extended into March 18th, which is coming up.
    Mr. Davis. OK. Do you anticipate another waiver?
    Secretary Chao. Well, this is a big decision, because, 
legislatively, the Department is constrained.
    Mr. Davis. All right, thank----
    Secretary Chao. So we have to study it carefully.
    Mr. Davis. And I am specifically talking----
    Secretary Chao. But I am very sympathetic to this issue.
    Mr. Davis. Yes, and I am specifically talking about the 
livestock industry.
    Secretary Chao. Yes.
    Mr. Davis. It is also my understanding----
    Secretary Chao. This is the waiver.
    Mr. Davis. What is that?
    Secretary Chao. This is the waiver.
    Mr. Davis. Right.
    Secretary Chao. The waiver was only for livestock.
    Mr. Davis. OK.
    Secretary Chao. Yes.
    Mr. Davis. Thank you very much. I appreciate the 
opportunity to ask you this, and we will get back with you on 
the waiver issue, to make sure our questions are answered.
    Thank you, I yield back.
    Mr. Shuster. I thank the gentleman. And now Ms. Titus is 
recognized for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    Ms. Secretary, welcome back to the committee. It is nice to 
see you. The last time you were here I asked you about the 
status of the National Advisory Committee on Travel and Tourism 
Infrastructure.
    Just to remind everybody of what that is, in the FAST Act I 
worked with my colleagues across the aisle. We had a bipartisan 
amendment to the FAST Act. It created a committee to report 
directly to you that brought together a diverse array of 
experts from across the travel and tourism industry, and they 
were to advise you on--I quote--``current and emerging 
priorities, issues, projects, and funding needs related to the 
use of the intermodal transportation network of the United 
States to facilitate travel and tourism.''
    And travel and tourism are very important to my district in 
Las Vegas. But all around the country, no matter what district 
you represent, there is something related to tourism that is 
there.
    Now, we thought that with infrastructure being such a 
priority of this President, that now would be a good time for 
this committee to be meeting and giving advice on how travel 
and tourism priorities would fit into that plan. Under your 
predecessor, the advisory committee was up and running, 
meetings were occurring, they were coming with recommendations.
    In February of last year, though, following your 
confirmation, I led this letter with my fellow House and Senate 
Members who are cochairs of the Travel and Tourism Caucus. And 
I would like to ask that this be submitted into the record. And 
we were urging you to kind of prioritize that committee's work.
    Unfortunately, though, nothing has happened. They haven't 
met, they reschedule meetings and they cancel meetings. And so, 
I would just like to ask you, if they are unable to continue 
their work, you are not kind of empowering them to continue, 
how can their recommendations be reflected in the 
infrastructure plan?
    Their charter goes away June the 20th. And I wonder, are 
you just waiting out the clock, or are you going to be working 
with this committee?
    And don't you think these priorities are important to 
consider, as we move forward with infrastructure plans?
    Secretary Chao. I know this is important to you. It was 
brought to my attention just before the hearing.
    Now, we don't really have a good grasp over all of what is 
called FACAs [Federal Advisory Committee Act]. These are all 
boards and commissions. And so we are slowly, and I do admit 
slowly, going through them to see what needs to be done with 
them, how do we get them going. And frankly, I just haven't had 
enough staff to go through it. But we will take a look at it.
    Ms. Titus. Well, I hope so, because it has been a year 
since I have asked about this. And their time is running out, 
and we are putting the plan together now. And you have got 
experts on that committee who are ready and willing to go to 
work, if you will just give them the say-so.
    And, you know, in addition to that, according to the same 
section of the FAST Act, that requires that your department 
consult with them on the strategic plan. And that is supposed 
to be submitted by the end of the year. And if they are not up 
and operating, they are not going to be able to have any input 
into that, either.
    And so, I hope you will make that a priority. I have been 
hoping that for a while now. And it really didn't seem like it 
would require that much effort to see what they are doing and 
what they can contribute to this kind of major infrastructure 
overhaul that you are talking about.
    Secretary Chao. Thank you for bringing it to my attention.
    Ms. Titus. No, thank you. And I look forward to hearing 
back from you and Rossi Ralenkotter, who is the chair of that, 
who is also the chair of our Convention and Visitors Authority, 
to hear that progress is being made.
    Secretary Chao. Thank you.
    Ms. Titus. All right. Thank you, and I yield back.
    Mr. Shuster. I thank the gentlelady. And without objection, 
the gentlelady's letter will be made part of the record.

        [The letter referenced by Congresswoman Titus is on page 100.]

    Mr. Shuster. And with that, I recognize Mr. Sanford for 5 
minutes.
    Mr. Sanford. I thank the chairman. And thank you, Madam 
Secretary. Two quick questions on infrastructure.
    One is could you give a little bit more definition of the 
3-year look-back, as it relates to infrastructure? Because, for 
instance, South Carolina just raised its gas tax. And one of 
the things that I have heard from back home is questions as to 
the degree to which they will be recognized for doing so. A 
question on that front.
    Secretary Chao. No, it is an issue, because, in fact, South 
Carolina had a very, very good project, which was originally on 
the first round of some grants that were to be released. And 
yet, because of what they did, showing that they had 
initiative, they had responsibility, they were actually not 
eligible to receive the grant that they would have received if 
they were laggard, in terms of not raising any revenues at all.
    So, this is one of a number of projects. But there was also 
balanced against this another concern that there were States 
that did this 10 years ago, and there were some people in this 
working group of agencies that thought that that was not fair 
to include 10 years. So the compromise was 3 years.
    And this and other issues, I have mentioned to the 
chairman, we are more than willing to work on a bipartisan 
basis with both sides on how to address this and other issues 
of concern, because I understand South Carolina is a glaring 
example where you did not get a grant for a port in South 
Carolina. I don't know whether that is in your district.
    Mr. Sanford. Yes.
    Secretary Chao. But they took responsibility, they raised 
their own revenues, and then subsequently they were not 
eligible for the grant.
    Mr. Sanford. All right. So to be continued on that one.
    The other question is actually tied to Charleston, as well. 
And that is one of the questions with P3s is you--in essence, 
they are aimed toward revenue-generating projects. And yet, if 
you look at flooding in Charleston, it has increased rather 
dramatically. So something is going on, in terms of sea level 
rise. We can have long debates on the why and the what, but the 
bottom line is that it is happening. And nuisance flooding has 
exacerbated, as has more damaging forms of flooding.
    They have committed significant amounts of money to doing 
so, but it looks like they will be ineligible for many of these 
other kinds of grants, given the fact that there has to be a 
revenue-generating component to what is done. And that 
obviously doesn't fit with safeguarding property, as a 
consequence of this flooding.
    Any particular ideas there, in terms of where folks in 
Charleston might be able to better look on the grant front?
    Secretary Chao. I am not familiar with that. It is a good 
point. And if you will let me, let me take a look at that, and 
we will get back to you on that.
    Mr. Sanford. All right. I appreciate that.
    Mr. Chairman, thank you for the time.
    Mr. Shuster. Thank you.
    I thank the gentleman. Mr. Payne is now recognized for 5 
minutes.
    Mr. Payne. Thank you, Mr. Chairman.
    Secretary Chao, I am going to follow up with my colleague's 
line of questioning, Mr. Sires, in reference to the Gateway 
project.
    Now, this weekend the Washington Post reported that 
President Trump is actively seeking to undermine the Gateway 
project now. Now, we know this project is one of the biggest 
and most expensive in the country, granted. We know that 
hundreds of thousands of commuters and intercity travelers rely 
on this trans-Hudson infrastructure to get in and out of New 
York, daily.
    Despite the President's actions, are you saying that there 
is no commitment to support this critical infrastructure on the 
Federal level?
    Secretary Chao. There is no commitment, there is no 
documentation on Federal funding, there is no completed 
application.
    Mr. Payne. I was at that meeting in the White House, as 
well. I sat about two chairs away from you.
    So, when the President talked about it being a good 
project, and it looks good, and we are going to move forward, 
and talked to Governor Cuomo even about that runway at 
LaGuardia Airport that he felt that they should get, now you 
are saying that none of this happened?
    Secretary Chao. No, I did not say that. I said we were 
polite, we were respectful, we were cordial. We made no 
commitments. We want to work together. There is no doubt about 
that. But working together also means that New York and New 
Jersey, two of the richest States in the country, have got to 
come up with more than zero financing on one project----
    Mr. Payne. Excuse me, excuse me, it is not zero--
    Secretary Chao [continuing]. And 5 percent on the other.
    Mr. Payne. Yes, well, I don't know where you get your 
information, because we have offered a 50/50 split with the 
Federal Government, not 80--not 10/90, not 80/20--50/50, half.
    Secretary Chao. We have----
    Mr. Payne. You have----
    Secretary Chao. That is great.
    Mr. Payne. You have not----
    Secretary Chao. If that is the case, that is terrific.
    Mr. Payne. You have not heard that?
    Secretary Chao. That is great. No. We have been in 
discussion with the----
    Mr. Payne. You have not heard that? You have not heard that 
New Jersey and New York had offered 50 percent of the----
    Secretary Chao. Well, that could have been said. But in 
discussions that we have been having with them, there is zero 
financing on the Hudson Tunnel and the Portal Bridge. It is 
zero financing on one by the New York/New Jersey parties, and 5 
percent on the other. And they are using TIFIA loans, which 
they are going to get from us, as part of their downpayment.
    Mr. Payne. Absolutely incorrect.
    Secretary Chao. Well, sir, I think we have a disagreement 
about the facts, then.
    Mr. Payne. Exactly, yes. And I know this administration and 
their alternate facts, and how that works.
    Secretary Chao. Sir, I take exception to that. I never have 
said that.
    Mr. Payne. Then take exception to that.
    Secretary Chao. And I do not want to be stern----
    Mr. Payne. You can take----
    Secretary Chao [continuing]. But the misinformation on this 
project has been stunning.
    Mr. Payne. Mr. Chairman, reclaiming my time.
    Mr. Shuster. The gentleman has the time.
    Mr. Payne. Let me say this. It is very unfortunate that the 
things you hear come out of this administration, once you leave 
a day later, it just dissipates into air. It never happened. It 
just dissipates. It is amazing.
    I really suggest you look at the facts at what New Jersey 
has offered, New York and New Jersey have offered on this. And 
please, can we somewhere along the line live up to our word 
with this administration?
    And I yield back.
    Mr. Shuster. I thank----
    Secretary Chao. Sir, if you will put that in writing and 
have New York and New Jersey submit something in writing, we 
will be more than pleased to look at it. Thank you very much. 
Because currently we have nothing.
    Mr. Shuster. I thank the gentlelady. And I believe that is 
the fact, that there has been no submission. So it is up to the 
States to submit something.
    And with that, I recognize Mr. Woodall for 5 minutes.
    Mr. Woodall. Thank you, Mr. Chairman. And thank you, Madam 
Secretary, for being here with us. And thank you for all that 
you have done in partnership with my home State of Georgia. I 
have heard folks accuse the administration during this hearing 
of pushing problems down on folks. What I know is when our 
State was at its weakest, you all stepped in to make sure that 
the collapse of our major transportation corridor through the 
State--a collapse due to fire--you all were there, not from day 
one but from hour one. And I am thankful for your 
responsiveness.
    I see, sitting behind you, Mr. McMaster and Mr. Ray. You 
have been served by a great team. I am pleased that within the 
last month you have added a new member to your team, and that 
Assistant Secretary by the name of Adam Sullivan. He served the 
Georgia delegation years and years proudly and with 
distinction. And my expectations for your department were 
already extremely high because of your leadership. But seeing 
the folks you are adding to that list sent it even higher.
    You mentioned, when Mrs. Napolitano was asking you about 
the 3-year look-back, the willingness to have that 
conversation. I am grateful to you for sharing that. Mr. 
Sanford touched on it a little bit, too. Are you able to share 
anything from those multipartner discussions to help me to 
understand what characteristics the Department is looking for, 
as we continue to have that discussion?
    I know we want to encourage more investment, and that is 
certainly what South Carolina did and Georgia has done. And the 
fear is we don't want to go back and capture investments made a 
decade ago that are not being influenced by the new $200 
billion that is available.
    Is it clear to you, as you and I sit here today, what some 
of those characteristics are that will determine the outcome of 
that conversation, whether it is a 2-year or a 3-year or a 5-
year, whether it is an 80-percent credit or a 60-percent 
credit, is there any guidance that you can provide to me? Or is 
it genuinely a blank slate? And we will have that discussion 
going forward.
    Secretary Chao. You bring up some very good points about 
criteria. I think we are actually pretty open. It was just this 
concern about how do we give people credit, but not give them 
so much credit that there is nothing for them to do, going 
forward, and they still get the Federal dollars for a project 
that is already existing and up and running. So we are working 
forward, too.
    If I may just add one thing. Yes, thank you for your 
compliments about the appointees at the Department. They are 
all doing a great job, as are the career folks. I just wanted 
to let you know Adam Sullivan was just sworn in yesterday, and 
he was nominated more than 9 months ago.
    Mr. Woodall. Nine months ago. You wouldn't know you were 
shorthanded, given the amount of productivity that has been 
coming out of the Department.
    I go back and I look at the numbers. We talk about $200 
billion in brandnew Federal dollars being pumped in, as if it's 
a ``nothing'' of a proposal. Of course, that is more money than 
the American Recovery and Reinvestment Act pumped into 
transportation. It is a stunning amount of money, almost as 
much as the chairman was able to put forward in our FAST Act, 
which is the biggest transportation bill that we have ever done 
around here.
    But I am thinking about some of the regulatory challenges 
that the Department has dealt with. By my count, we are close 
to $1 billion in regulatory savings, not because we have 
sacrificed any of our stewardship responsibilities to the 
environment or to labor or to local control, but simply because 
of some of the efforts you all have made to spend that money 
more wisely.
    I know the first year on the job offers lots of potential. 
Do you think we will continue to see those kinds of regulatory 
reforms, those kinds of savings that cost us nothing, as 
taxpayers and as stewards of the environment, but go to real 
dollars going back into infrastructure?
    Secretary Chao. Under the previous administration the 
burden of regulations on just the transportation sector alone 
was more than $3 billion a year. In the last year, we have 
taken a look at these regulations without compromising on any 
of the really important things to us, like the environment. And 
basically, we have been able to have a deregulatory approach 
that actually will decrease regulations by about $312 million.
    Concurrent with that, of course, is the permitting, which 
is separate from the deregulation. And I have given some 
examples of the permitting processes that can be improved. And 
that is getting rid of sequential, duplicative processes, and 
many of them came, actually, from the Members of Congress, 
giving us suggestions and recommendations as to what we should 
be looking for. And so we look forward to working with the 
Members of Congress in ensuring that projects that really need 
to be online are being given the permission that they need to 
begin improvements.
    Mr. Woodall. Well, I don't just thank you for what you do, 
I thank you for how you do it. When young men and women talk to 
me about the discord in politics today, and they want to know 
what a real public servant looks like, I often give them your 
name. And I am grateful to you for your service.
    Secretary Chao. Thank you so much.
    Mr. Shuster. I thank the gentleman. Mr. Lowenthal is 
recognized for 5 minutes.
    Dr. Lowenthal. Thank you, Mr. Chair. And thank you, 
Secretary Chao, for addressing us.
    I want to associate myself first with many of the comments 
that Congresswoman Esty made in presenting Ranking Member 
DeFazio's statement, and also some of the comments of Chairman 
Shuster and other colleagues who have highlighted some of the 
issues or concerns that they have with the administration's 
infrastructure package.
    You know, unfortunately, I believe the administration has 
ducked the tough decisions that Congress must make, decisions 
on how to shore up the Highway Trust Fund, and how to move 
towards a sustainable path for infrastructure investment.
    Secretary Chao, I am concerned that your proposal 
undermines a key priority of mine: to fund the Nation's system 
of goods movement. I was glad to hear Congressman Denham 
mention goods movement. Perhaps you have heard the phrase 
``Freight doesn't vote,'' which explains why a dedicated 
freight funding has been so hard for Congress to deal with, and 
very hard to be won in Congress.
    The administration's infrastructure plan proposes, as I 
understand, a $100 billion grant program over 10 years that the 
States and cities can compete for at a 20-percent Federal 
share. This additional funding, however, is now paired with a 
Presidential budget request that cuts $122 billion from the 
Highway Trust Fund over 10 years.
    As you know, the Highway Trust Fund provides dedicated 
formula grants for freight programs, as well as discretionary 
grants through the INFRA program. This proposed budget 
significantly scales back both.
    The President's budget also eliminates the highly 
oversubscribed TIGER program, which has made key intermodal 
investments, including $30 million to improve the flow of 
commerce at both the Ports of L.A. and Long Beach.
    So the question I have is, given the Nation's staggering 
need to improve freight movement and relieve congestion, how 
does your administration's plan advance freight projects, while 
at the same time eliminating guaranteed and dedicated funding 
for freight?
    Secretary Chao. Freight is very important, obviously. And 
you bring up a very good point, and I don't have an answer for 
you. I should. So, if you would, let me get back to you on 
that. But you bring up a very important----
    Dr. Lowenthal. And I hope----
    Secretary Chao. I am remiss, not being able to answer it.
    Dr. Lowenthal. Thank you. And I hope, while you are looking 
at it, you look at a proposal that I put forth in H.R. 3001, 
which establishes a sustainable, dedicated freight trust fund. 
It would make sure that we have the resources to deal with 
these critical investments. And I think it is consistent with 
what we have talked about before, in terms of user fees. I 
would like you at least to address that issue.
    Also, next question, Secretary Chao, is the administration 
has said that it would like to reduce--and we have heard it 
here today--the environmental permitting process from 10 years 
to 2 years.
    Yet, according to CEQ, the--the Council on Environmental 
Quality--the overwhelming majority of Federal projects that 
require environmental review--that is approximately 95 percent 
of those projects--proceed under categorical exclusions and are 
exempt from the most rigorous types of environmental review. 
Less than 1 percent of the projects require a more rigorous 
environmental impact statement, the EIS. And according to the 
Federal Highway Administration, the average length of that 
review is less than 4 years.
    What I don't understand is, given these statistics, why 
does President Trump insist that it takes 10 years to go 
through the permitting process for a transportation project?
    Secretary Chao. First of all, we are not talking about 
environmental permitting, we are just talking about permitting, 
overall. As mentioned, we all want to protect the environment. 
But there are ways in which the permitting process is 
duplicative, it doesn't make sense, just from a process point 
of view, that we hope we can address.
    The permitting process also not only includes Federal, but 
State and local. And the process could take 10 years.
    Dr. Lowenthal. Yes.
    Secretary Chao. Our part can be maybe a portion of that.
    So one example is in Alaska. I went up to Alaska in August, 
and it just so happened that the permitting process for the 
Sterling Highway came through after a 35-year delay, and it 
came from the Department of the Interior.
    So are there not ways we are asking ourselves, with input 
from the Congress, on how we can improve the permitting process 
so many of these projects, transportation infrastructure 
projects that need to be repaired, improved, can actually begin 
construction and improvement? That is what we are talking----
    Dr. Lowenthal. Thank you. And just as I yield back I will 
submit in writing--I am concerned about the delays and 
uncertainty regarding the New Starts program. I will submit 
that, especially about the Orange County Streetcar, which has 
gone through everything and is ready to go.
    And also I concur with Congresswoman Napolitano regarding 
the 2028 Olympics in Los Angeles, and the need for 
infrastructure improvement.
    Thank you, and I yield back.
    Mr. Shuster. I thank the gentleman. And I have not seen 
your proposal on the freight rail trust fund. I would caution, 
though, the railroads typically don't want Federal dollars 
because you put a dollar of Federal money in, it costs twice as 
much, it takes twice as long to do it. So again, I would be 
interested to see your proposals. So I appreciate that.
    And, with that, Mr. Babin is recognized for 5 minutes.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman, and thank 
you, Secretary Chao.
    Any big construction projects, say nothing of a $1.5 
trillion infrastructure package, relies on an efficient and 
cost-effective freight delivery network, especially trucks, to 
help build it. And for the past 8 months I have been working 
hard to do something about the ELD mandate, the electronic 
logging device, which I believe is not only hurting our 
economy, but making our shared goal of rebuilding our 
infrastructure that much harder.
    And I acknowledge, though, that while there are serious 
issues with the costs, security, and reliability of ELDs that 
we are already seeing, the bigger concern here is the 
underlying hours of service regulations and the inflexible 
enforcement of them triggered by an ELD.
    Professional drivers often identify the current HOS 
requirement as counterproductive, and an impediment to safety 
improvement. Crashes are up, for an example, by 56 percent 
since 2010. And drivers say they are often forced to drive at 
times of high traffic congestion, bad weather, or when they are 
tired or fatigued. And they want flexibility.
    So while I would continue to strongly urge you, Madam 
Secretary, to direct a waiver from this ELD mandate for all 
sectors of the trucking industry--not just livestock, as we 
have heard today--I would like to get your perspective and 
hopefully your commitment on steps that we can take to 
modernize and add some common sense to these hours of service 
regulations.
    And my office is working right now with outside 
stakeholders on a solution that would provide for the same 14-
hour window of service, but with additional flexibility for 
drivers to take their rest hours when they want and when they 
need it, not as weather and traffic conditions permit. And ELD 
tries to tell them to do so.
    Can I have your commitment to work with us and your team to 
explore these sorts of options, either through the regulatory 
or the legislative process, Madam Secretary?
    Secretary Chao. I am very sympathetic to this issue, 
because I come from a rural State. The ELD issue and the 
waivers are tied in to the hours of service, which is the 
underlying legislation.
    Dr. Babin. Right.
    Secretary Chao. We are very much constrained by the law. So 
we look forward to working with you, and there will be other 
people on the other side, on how to handle this.
    Dr. Babin. I understand. But even those on the other side 
have a problem with the hours of service. And a lot of this 
could be, I think, taken care of if we could give some 
flexibility to some of our drivers.
    Secretary Chao. It was tightened up in around 2010, 2011.
    Dr. Babin. But that is supposed----
    Secretary Chao. I would be more than glad to talk with you 
about all of----
    Dr. Babin. Absolutely, I would love to do so. Because, as I 
said earlier, traffic crashes with trucks are up 56 percent 
since 2010.
    Another question. The State of Texas recently invested 
millions in a new state-of-the-art Center for Infrastructure 
Renewal at Texas A&M University. This focuses on all aspects of 
infrastructure renewal and from new materials to workforce 
development to cybersecurity.
    Can you speak to your agency's strategic plan for engaging 
with industry and academia to bring innovation and sufficiently 
trained manpower to our Nation's infrastructure agenda, 
specifically your plans to partner with existing comprehensive 
facilities like our own Texas A&M CIR I mentioned to maximize 
public-private investment in partnerships to ensure innovation 
and sufficiently trained manpower fuel our infrastructure 
investments of the future?
    Secretary Chao. Well, these transportation centers, 
research centers and universities all across the country, are 
very helpful. I am afraid the Secretary of Energy has beaten 
you to this particular point. He has been pushing this point 
with Texas A&M for quite a while. So we are very much aware of 
it, and we are trying to work with the Energy Department.
    Dr. Babin. Excellent.
    Secretary Chao. We will also work with you, as well, on 
this.
    Dr. Babin. Excellent. Thank you, Madam Secretary, because 
the--our Energy Secretary is an alumni of Texas A&M. OK, thank 
you. I yield back.
    Mr. Shuster. I thank the gentleman, and I appreciate the 
argument you made there. I think this ELD debate shouldn't be 
about the technology, it is about the rest time, it is about, 
you know, the--the police sleep don't say sleep at a certain 
time, but truckers can figure it out. And again, with this 
technology today, we can probably know exactly when somebody is 
resting and when they are not resting.
    So again, I think the technology is positive. And again, I 
appreciate Dr. Babin for you bringing that up about the hours 
of rest need to be flexible for these drivers.
    Dr. Babin. Thank you, Mr. Chairman.
    Mr. Shuster. With that, Mr. Maloney is recognized.
    Mr. Maloney. Thank you, Mr. Chairman.
    Mr. Shuster. Mr. Huffman is recognized, sorry.
    Mr. Maloney. OK.
    Mr. Shuster. The ranking member overrode me.
    Mr. Huffman. We are always getting confused with each 
other, Mr. Chairman.
    Mr. Maloney. Better news for me than for you, sir.
    Mr. Huffman. Thank you, Mr. Chairman.
    And Madam Secretary, thank you for joining us here today. I 
want to ask you about the capital investment grant program. 
This is something Congress appropriated $2.4 billion for in 
fiscal year 2017. These Federal dollars were intended to build 
new transit investments selected by local communities. Projects 
under this program have been reviewed, highly rated, and are, 
in many cases, awaiting your approval.
    I wonder, Madam Secretary, if you would agree with me that 
since Congress has spoken creating this program, funding this 
program, that unless and until the program is ended it is your 
legal responsibility to carry it out.
    Secretary Chao. Yes, absolutely.
    Mr. Huffman. Thank you. Because in my district, we have got 
a project that we are very proud of. It is the Sonoma-Marin 
Area Rail Transit program, or SMART. It has been moving ahead 
with a new regional commuter rail system that is funded almost 
entirely by local sales taxes and other local and regional 
funding sources. It opened in August 2016 with a fully 
operational Positive Train Control system. At a time when we 
are focused a lot on rail safety and Positive Train Control, 
this is a project that we can all celebrate and be proud of. It 
is, arguably, the safest little railroad in America, and a real 
extraordinary success story.
    The only problem is it has been waiting for months for 
funding under a Small Starts grant to be distributed. This is a 
grant that was previously awarded. And although your agency has 
issued a no prejudice letter, we have not been able to get that 
funding distributed.
    We talk a lot here about projects that are shovel ready, we 
talk about the burden of permitting and environmental review. 
This is a project where everything is ready. In fact, the 
shovels are already working, it is under construction. But for 
reasons we still don't understand, we just can't get those 
funds distributed.
    So I wanted to bring this to your attention, Madam 
Secretary, as an example of infrastructure that everybody 
thinks can and should move forward, but it has the potential to 
be derailed. And I understand that positions are still being 
filled and some of the other challenges we have heard about 
here today. But would you agree with me a project like this, 
that is really right down the line the kind of thing we want to 
support, the kind of thing that should get its funds 
distributed, deserves your attention and support in a moment 
like this?
    Secretary Chao. I will take a look at that project, and see 
where it is at this point.
    Mr. Huffman. Thank you, that is much appreciated. And that 
is all I had for you, Madam Secretary. So I yield the balance 
of my time.
    Mr. Graves of Louisiana [presiding]. The gentleman yields 
back. I recognize myself for 5 minutes.
    Madam Secretary, thank you very much for being here, and I 
want to pass on commendations from the State, Louisiana, the 
secretary of transportation and development, who has been 
through dozens of disasters over the last several years, who 
said that your outreach activities related to some of the 2017 
disasters was far better than any other administration that 
they have dealt with. So I want to thank you for that.
    The State of Louisiana, like many States, has a lack of 
investment in infrastructure. I think they have had some 
prioritization problems and other things over several years.
    I am curious, with the administration's proposal, 
infrastructure proposal, what recommendations you would make to 
a State like Louisiana that already is suffering financial 
challenges, deficits, what recommendations you would make to 
them to ensure their ability to fairly compete for some of the 
infrastructure dollars that are available when we are already 
having financial problems.
    Secretary Chao. Well, Louisiana is a rural State, 
basically, except for, obviously, the major cities like New 
Orleans. So there is actually a title, a proposed provision 
within the guidelines that have been passed forward that rural 
America will come under a different provision, and it will be 
formula grant, basically.
    Mr. Graves of Louisiana. Yes, and thank you. And Secretary 
Wilson actually made specific mention of the rural program, as 
did the Governor, and how they are appreciative of that. But we 
also do have cities like New Orleans, Baton Rouge, Shreveport, 
and other areas that have more sizeable populations.
    Just to give you an idea, my hometown of Baton Rouge, which 
only has a population of approximately 230,000 people, if I 
recall correctly, we were recently rated as having the 13th 
worst traffic in the United States, and the 106th worst traffic 
in the world. This is the town of Baton Rouge with, again, 
approximately 200,000 people in the city.
    You and I spoke a few weeks ago about the fact that we have 
the only place in the United States where the interstate system 
funnels down to one lane. Anybody who is thinking about that 
idea, it is an awful one, please don't replicate it. It 
certainly contributes much to traffic. And the solution there 
is going to be a new bridge, among other investments, which--
you are looking at probably over $1 billion.
    So the rural program is good for much of our State. But 
when you get into these metropolitan areas, I don't think it is 
really going to fit or address some of the solutions there.
    Secretary Chao. So the rural areas is one part, and then 
the other parts, for example, like the major cities, New 
Orleans and Baton Rouge. It is going to be up to the State and 
local governments as to how they want to package and prioritize 
the transportation projects that they view as most important. 
And they would package that, send that up to the Department of 
Transportation, or it can be to whatever else. If it is water, 
energy, whatever, it would go to the other departments. And 
then there would be a process by which targeted investments 
would be evaluated and ultimately, grants given.
    Mr. Graves of Louisiana. Thank you. I want to make sure, as 
we move forward on this, that we continue to have discussions 
and understand the implications. As a former implementer of 
large-scale infrastructure projects, I do think it is important 
that both the State and Federal Government relay to one another 
expectations in terms of budgets, and give us the appropriate 
time to adapt or prepare for those additional demands.
    I know that much of the work that I have done with the 
Corps of Engineers, it was a very difficult partnership because 
they would come in one year and provide funding, then we would 
have zero funding for a number of years following. That 
predictability of funding, and making sure that we convey to 
both Federal and non-Federal partners expectations--and giving 
appropriate time for budget planning, I think, is a really 
important component of this proposal.
    One other thing, Madam Secretary, that I want to relay to 
you--and I know you have commented on it to some degree here in 
today's hearing--we need to make sure that we don't come in and 
put good money on top of bad. And the chairman made note a few 
minutes ago about the fact that some of the rail lines don't 
want to see Federal investment because, by complying with 
Federal standards, you are going to be doubling the cost of 
projects. In some cases, I think it can be even higher than 
that.
    I know that there has been some talk about looking at the 
appropriate threshold to trigger Federal requirements like 
NEPA, Davis-Bacon, historic preservation or other things, and 
allowing for States to use their own surrogate process to 
respect the environment, address worker wages, and other 
important priorities.
    I want to ensure that, as we move forward, that we are 
paying close attention to those types of efficiencies. Because 
if we are coming in and putting additional Federal dollars on 
top of an inefficient project development delivery system, that 
is not yielding taxpayers the results they deserve.
    I am not sure if you want to comment on project 
deficiencies in the remaining seconds.
    Secretary Chao. You actually make a very good point, and we 
actually are in the process of dealing, for example, with 
Nebraska, and letting them take hold of the permitting process. 
There is no devolution, there is no dilution at all. But 
certain States have applied, and we are working with them. So 
that is a very good point, thank you.
    Mr. Graves of Louisiana. Thank you, Madam Secretary. I am 
now going to yield 5 minutes to the real gentleman from New 
York, Sean Patrick Maloney.
    Mr. Maloney. If I had a nickel for every time I heard that.
    [Laughter.]
    Mr. Maloney. Secretary Chao, it is wonderful to be with 
you.
    Thank you, Mr. Chairman. And I apologize, I had to step out 
earlier, so if some of this has been covered, I hope you will 
bear with me.
    But can you confirm for me that the Gateway project in New 
York was listed as the number-one project on the Trump 
administration's priorities list? Do I have that right?
    Secretary Chao. I don't think so.
    Mr. Maloney. You don't think so?
    Secretary Chao. I don't think there is a list.
    Mr. Maloney. Well, I think that you identified major 
projects of national significance, and it was the number-one 
project.
    But stipulating the importance of the project, you would 
agree with me it is an important project.
    Secretary Chao. We want to work with the States. The issue 
is how to fund it, and what the proportion of shares are.
    Mr. Maloney. Right. So the Washington Post reported, 
Secretary Chao, that President Trump recently personally 
requested that Speaker Ryan block the Federal funding for the 
Gateway project in the omnibus spending package. What can you 
tell us about that? Is that true?
    Secretary Chao. I read it in the newspapers, just like you 
did.
    Mr. Maloney. Right. My question was is it true?
    Secretary Chao. It probably is, because----
    Mr. Maloney. And can you tell us why the President is 
seeking to block funding----
    Secretary Chao. I think you need to ask the White House on 
that.
    But I have already said----
    Mr. Maloney. Secretary Chao, excuse me.
    Secretary Chao. I will be more than glad to explain it, if 
you let me. I have just said that to you numerous times, to the 
New York-New Jersey delegation, and apparently my answers are 
not good enough, but I don't have----
    Mr. Maloney. Yes. Well, I think it is fair to say they 
are----
    Secretary Chao. It is the same answer, because those are 
the facts.
    Mr. Maloney [continuing]. Not good enough to come before 
Congress and to say I have to ask the White House, when you are 
the Secretary of Transportation.
    Secretary Chao. There is no agreement, first of all, 
between New York-New Jersey and the Federal Government as to 
the Federal and local shares in financing the projects. There 
is no documentation focused on this issue.
    Mr. Maloney. My question was much more narrow. My question 
was is the President of the United States personally 
intervening with the Speaker to kill this project?
    Secretary Chao. The President, yes, the President is 
concerned about the viability of this project, and the fact 
that New York and New Jersey have no skin in the game. The 
localities need to step up and bear their fair share. They are 
two of the richest States in the country. If they absorb all 
these funds, there will be no other funds for the rest of the 
country.
    Mr. Maloney. Thank you for confirming that. And is it also 
the case that the administration has rejected the 50/50 
partnership developed by the Obama administration----
    Secretary Chao. I may be wrong, but it is my 
understanding----
    Mr. Maloney. Excuse me. If I could ask my question, ma'am, 
thank you. Proposed to eliminate CIG funds, proposed to 
eliminate Amtrak funds, tried to block all omnibus funding, and 
now, with your confirmation, threatened other lawmakers with 
the loss of their project, and asked the Speaker to personally 
kill it?
    So is it fair to say that the States aren't doing enough, 
when this is the administration's sorry record on this project?
    Secretary Chao. Sir, that is your characterization. It 
takes me too much time to have to answer every single one of 
those misstatements. And this is said with the greatest 
respect.
    Mr. Maloney. Mr. Chairman, how much time do I have 
remaining?
    Mr. Shuster [presiding]. What was the question?
    Mr. Maloney. How much time do I have remaining?
    Mr. Shuster. 200----
    [Laughter.]
    Mr. Shuster. Two minutes and four seconds.
    Mr. Maloney. Well, Madam Secretary, you may have my 
remaining 2 minutes if you can do your best to explain why 
the----
    Secretary Chao. Absolutely, I will be more than glad to.
    Mr. Maloney [continuing]. President of the United States is 
killing the most important infrastructure project certainly in 
the Northeast, probably in the country, and why it has actively 
undermined the efforts of the previous administration to work 
out the very issues you just addressed. Please, take my time 
and tell us why this project, which is so important, is being 
killed personally by this President.
    Secretary Chao. Those are your words, not mine. If you want 
the President's stance, please go to the White House. There is 
no such agreement as to the Federal versus local shares. The 
previous administration made no commitment, except at a 
political rally in the heat of a campaign. There is no 
documentation evidencing any commitment on this vital issue. 
There is no completed application on the nine projects that you 
collectively call Gateway.
    The career staff rated this project as not eligible for 
Federal funding because the State and local government have put 
in 5 percent in one, zero percent in the other. That is not how 
these projects are financed.
    One of the projects is thinking about applying for a TIFIA 
loan. They are taking our loan and using it as their equity. 
That is like if you are getting a mortgage, you have to put 20 
percent down as your equity, you go out and you get a second 
loan and you call that second loan your equity. Well, there are 
certain guidelines in which these loans are put together.
    As an example, if you look at the Purple Line in Maryland, 
it is 38 percent Federal grants, 33 percent TIFIA loan, 20 
percent State, 9 percent the private sector. And I-66, right 
here in Virginia, the private sector put in 42 percent, TIFIA 
is 33 percent----
    Mr. Maloney. Ma'am, I am familiar with how the TIFIA 
program works.
    Secretary Chao. Let me finish. Twenty-five percent is 
public activity bonds with no Federal funding.
    Mr. Maloney. Yes, I am very familiar with how the TIFIA 
program works, and I understand those comparisons. I am also 
struck by something you said, which is that we cannot ask you 
about the administration's positions in this room.
    Secretary Chao. No, you can.
    Mr. Maloney. But I have to ask the White House about 
something as important as the Gateway project?
    Secretary Chao. Please confirm that with him.
    Mr. Maloney. Is----
    Secretary Chao. Yes, please confirm that.
    Mr. Maloney. I understood you correctly on that?
    Secretary Chao. Yes.
    Mr. Maloney. Can you explain why?
    Mr. Shuster. The gentleman's time is expired.
    Secretary Chao. That is how it works.
    Mr. Maloney. Please feel free to answer. I will stop 
asking.
    Secretary Chao. No, that is how it works. I don't speak for 
another person unless I am there, personally.
    Mr. Shuster. I thank the gentlelady, I thank the gentleman. 
Mr. Smucker is recognized for 5 minutes.
    Mr. Smucker. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here, thank you for 
your leadership and the administration, the President's 
leadership in advancing an infrastructure package that is so 
important to our Nation's economy.
    Also, I would like to thank you for the 3-year look-back 
provision that specifically helps a State like Pennsylvania. We 
just recently increased the wholesale gas tax and provided 
additional revenue. In fact, I would like to talk just a little 
bit about that if I have time.
    But first a question. I had sent a letter to you last year 
in June of 2017 regarding the administration's position on the 
use of project labor agreements on highway projects that are 
receiving Federal dollars. And it is important to me, important 
to my district, because we live in a State where project labor 
agreements have been used to exclude great companies and 
exclude many folks in the workforce from participating in jobs. 
And the letter I had sent in June was a response to one 
specific project where that had occurred.
    Someone from your department had replied September 7th. I 
have a letter here that says the U.S. Department of 
Transportation is currently reviewing the policy on the use of 
PLAs on federally funded projects issued in 2009. And it said 
it would keep us posted.
    So I would like to ask you for an update on that review and 
on the administration's policy on the use of project labor 
agreements on federally funded projects.
    Secretary Chao. I am actually very familiar with project 
labor agreements, having been the former Secretary of Labor. I 
think actually our response back is not totally correct, 
because we basically have to coordinate with the White House, 
and also with the Department of Labor on that particular 
provision.
    But having said that, let me try to get some clarity for 
you on it.
    Mr. Smucker. Yes, I was----
    Secretary Chao. As far as I know, no decision has been 
made.
    Mr. Smucker. I was pleased to see in your proposal the 
recognition of the need for individuals--for the workforce, 
essentially, to do the work that would be required--
infrastructure project. And you have one particular section on 
page 53 that talks about empowering workers.
    And you specifically talk about the need to allow workers 
with out-of-state skilled trade licenses to work in a 
particular State. And your reasoning for that I think is good, 
but could very much be applied to what I am talking about with 
project labor agreements.
    You talk about preventing out-of-state professionals--you 
could say preventing nonunion labor--would reduce the speed of 
these projects, delaying the effect of the economic benefit 
they provide, would increase the cost of the projects by 
artificially limiting supply professionals available to work in 
these projects. And allowing that would speed project delivery, 
reduce project costs, provide flexibility to workers. I 
couldn't have described better what we are talking about with 
project labor agreements, which really does artificially 
prevent 86 percent of the workforce available in the 
construction industry from working on these projects, and so 
would provide for more inefficient use of Federal dollars.
    So I would really, really appreciate you making that a 
priority, and establishing a policy that would prevent project 
labor agreements on any project with Federal funding.
    Now, back to--I have just 1 minute and 20 seconds--back to 
what we had done in Pennsylvania. The chairman had mentioned 
this briefly. We, Pennsylvania, increased the wholesale--or 
took the ceiling off the wholesale price for gas, and really 
created an infusion of new dollars into an infrastructure--in 
our case, mostly highways and bridges--that the public really 
understood the need for it.
    And I think the public does support additional funding for 
infrastructure, when they understand that--the state of the 
infrastructure and they understand the economic benefit. But I 
think it is important to talk about that. And I think, you 
know, all stakeholders involved, including the administration, 
really need to make the case for why this infrastructure 
funding and investment is so important.
    So I guess I would like to hear from you what your plans 
are in that regard, what the plans are of the Department and of 
the administration, in terms of selling the infrastructure 
project to the public, who needs it.
    Secretary Chao. Well, it is certainly a very important part 
of the infrastructure, and it is usually coordinated out of the 
White House. There are many different agencies that are 
involved with all of this. So that certainly should be done.
    Mr. Smucker. Well, again, thank you for your leadership on 
this, and I look forward to continuing to work with you.
    Secretary Chao. Thank you.
    Mr. Shuster. I thank the gentleman. Mrs. Bustos is 
recognized for 5 minutes.
    Mrs. Bustos. Thank you, Mr. Chairman and also Vice Ranking 
Member Esty. Thank you very much. And thanks, Madam Secretary, 
I appreciate you being here today.
    I am sure you remember this, but last time you were here I 
told you a little bit about my congressional district. I am 
kidding, you probably don't remember.
    Secretary Chao. Well, actually, I study all of your 
congressional districts.
    Mrs. Bustos. But I represent the northwestern--the entire 
northwestern corner of the State of Illinois. And it is mostly 
smaller towns, rural. It spans 7,000 square miles in 14 
counties. So I would like to talk a little bit about rural 
America, as it pertains to infrastructure. And I really 
appreciate what Congressman Graves had brought up, where he 
raised that States are already struggling to fund roads and 
bridges in our rural communities.
    But--so I was really happy that the administration made a 
decision to--well, earmark is not the right word, but to have 
part of the funding in the plan dedicated to rural America. And 
so I know specifically the plan calls for distributing rural 
formula funds in part based on rural lane miles. And so States 
like Illinois have plenty of rural roads, but also real needs 
in rural areas like drinking water systems, locks and dams, 
broadband, et cetera.
    So I am wondering why the administration believes that the 
rural lane miles are a good way of allotting funds that are 
intended to be used for all kinds of infrastructure, if you 
wouldn't mind filling me in a little bit on that.
    Secretary Chao. I don't really have an answer. That was 
kind of what the group came up with. And if you think that is 
not a right way to do so, I am very open.
    Mrs. Bustos. OK, OK. Maybe we can--we could put together a 
letter, or we could put together some thoughts, or happy to sit 
down with you about some of those other needs and maybe a 
funding formula that makes sense for some of these small towns.
    Secretary Chao. Well, the Congress is going to have a 
chance to mark up its own bill. So the good news is, and I 
really want to emphasize this, we may have differences, but we 
are actually quite open.
    Mrs. Bustos. OK.
    Secretary Chao. So we want to work with you. The 3-year 
look-back is another issue that I have heard a great deal 
about. We are very open to how do we work with the Congress on 
all of these.
    Mrs. Bustos. OK, I really appreciate that. I just think, 
when you are looking at rural America, there are a lot of 
needs, and they are special needs that vary from urban America. 
And so I really appreciate that offer to be able to work with 
you on that, and we will take you up on that.
    OK, question 2. The plan the administration released says 
the rural formula would also be adjusted to reflect policy 
objectives. Those were the words in the plan, ``policy 
objectives.'' And I don't know if you know the answer to this, 
but wondering if you could add a little more clarity on what 
that means by the policy objectives.
    Secretary Chao. We sent principles up, but we basically 
want to make sure that rural America has its own particular 
needs, and so we left it very vague. And again, it is an effort 
to, aside from the formula, which we thought was going to be an 
easy way to distribute funds, but if the Congress doesn't agree 
with that, then we certainly can revisit that, if that does not 
make sense.
    And with certain goals, I think we would like to have 
greater economic development, more job creation, greater 
economic vitality, which is why broadband and veterans 
hospitals can be of great help in providing that part of the 
infrastructure for rural America, as well.
    Mrs. Bustos. OK, all right. I have got about a minute and a 
half. And if we have time for this also, so the plan on--is 
silent, to my knowledge, on applying Federal protections like 
Davis-Bacon. I know in your opening statement----
    Secretary Chao. It is there.
    Mrs. Bustos [continuing]. You mentioned that the bill has a 
workforce component. So I am wondering, specific to Davis-
Bacon, if the administration supports the application of Davis-
Bacon on the infrastructure projects that will come forward.
    Secretary Chao. The administration certainly has not 
disallowed it. This is a hugely important issue. There are 
people against it, but I, frankly, don't see how a bipartisan 
bill can exist, come into being, without that provision.
    Mrs. Bustos. That is very good to hear. Let me see. So last 
question, then.
    Locks and dams, and I--you might have addressed this a 
little bit ago, but my western border--not just of my 
congressional district, but the entire State of Illinois and, 
you know, up and down the Mississippi River corridor--just 
severe needs. And I am wanting to--if you can address at all 
your thoughts on the locks and dam system, how you see your 
department being involved with that, what you can do to help us 
move some of the needed improvements along in a way that is a 
little bit more expedient.
    Secretary Chao. I am so glad to say that that is the Army 
Corps of Engineers. And there are lots of concerns always 
addressed on that.
    The chairman has a Harbor Maintenance Fund, which is a 
wonderful idea, which we should be replenishing and supporting 
to fulfill that purpose.
    Mrs. Bustos. OK. Thanks, Madam Secretary.
    Mr. Shuster. I thank the gentlelady. And with that, Mr. 
Bost is recognized.
    Mr. Bost. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here. And I know it has been a long day, 
but I would like to go back to some other questions that got--
kind of concerns.
    Let me, first off, tell you that I would look forward, if 
you are going to work with Representative Babin on the ELD 
hours of service, that was my life in a previous life. I grew 
up in a trucking industry and then ran one for many years.
    But I have a concern still on the answer that you gave on 
the livestock. The concern that I have is the original request 
on the livestock was a waiver for 5 years, and that was 
permitted--that was done in September. Now you answered that we 
have given 90 days and 90 days and 90 days. Is it possible that 
they can get the 5-year?
    Secretary Chao. The second 90-day has not yet been given.
    Mr. Bost. OK, all right. But----
    Secretary Chao. The first waiver is not the waiver, there 
is a difference in term. One is a waiver, which is 90 days. One 
is an exemption.
    Mr. Bost. OK.
    Secretary Chao. And we are evaluating----
    Mr. Bost. Five years?
    Secretary Chao. Exemption is 5 years, yes.
    Mr. Bost. OK, OK.
    Secretary Chao. But there are very strict criteria upon 
which that can occur.
    Mr. Bost. OK. I----
    Secretary Chao. So I look forward to discussing it with 
both of you and others who are concerned.
    Mr. Bost. I would like to hear on the criteria. And the 
reason why I would like to hear on the criteria, because we 
know the concerns that we have with livestock. You can 
naturally figure that out, OK?
    When you are moving livestock, they don't care what the 
computer says. They are going to live and die and have good 
time and bad time in the back end of a vehicle being moved from 
point A to point B, and cause a lot of trouble and concerns for 
what we are trying to deal with. But we did grant the 
exemption--if the 5 years is an exemption--for the motion 
picture industry. Why did we do the motion picture industry, 
and what criteria was used on that, in comparison to wanting 
to--where livestock--I think it is probably easier to explain 
that--I am trying to explain that to my----
    Secretary Chao. No, it is not easy. In fact, until this was 
brought up to my attention, I didn't even know that that waiver 
had been given.
    Mr. Bost. OK.
    Secretary Chao. It has been explained to me, I don't quite 
understand it.
    Mr. Bost. OK.
    Secretary Chao. So we understand the concerns of Congress 
and yourself, and many, many others.
    Mr. Bost. If you could get----
    Secretary Chao. What I will do is this. I actually have a 
confirmed PAS, Presidential appointee, Senate-confirmed, and 
that is Ray Martinez. Let me send him to your offices.
    Mr. Bost. That would be wonderful. That would be wonderful.
    Secretary Chao. And he----
    Mr. Bost. Thank you.
    Secretary Chao. Have him hear from you firsthand your 
concerns with this issue, and----
    Mr. Bost. OK.
    Secretary Chao. Because his office would be the one that 
will be issuing the waiver or the exemption.
    Mr. Bost. That is all we can ask for. Thank you very much 
for that.
    I have got another direction I want to go. When the 
administration rolled out and talked about its proposals for 
our infrastructure projects and everything like that, it was 
kind of silent. Originally in the campaign, and when first 
being announced, the President had spoke up and said with a Buy 
America--what language would be proposed in there. But he was 
kind of silent with that.
    What is your thoughts on the Buy America language being in 
there?
    Secretary Chao. Very much, of course, in support, because 
the President has made this very, very clear.
    So there are a number of other abiding authorities that are 
ongoing and existent which are not mentioned specifically in 
the infrastructure proposal you hear from some of the others, 
from the Democrat side, as well. I don't know the exact term, 
but these are overriding authorities, and they will prevail.
    Mr. Bost. OK, OK. Well, thank you for that. I am bouncing 
all over the place, and I am sorry for that, but these are 
questions that----
    Secretary Chao. Yes.
    Mr. Bost [continuing]. Came up after other people asked 
questions. When you are this far down on the pecking order, you 
kind of have to add and change things around.
    Early on we were talking about both the TIGER grant and the 
INFRA grant. And when you gave an answer you said that it has 
now been directed to a new department, or a new area of your 
department.
    Secretary Chao. It has.
    Mr. Bost. And so that does not allow them to work on both 
at the same time, is that correct?
    Secretary Chao. Well, it is a capacity issue.
    Mr. Bost. OK.
    Secretary Chao. So traditionally, these grants are 
processed through the modes, either Federal transit, or Federal 
highways, FAA. But in the FAST Act it was thought that a 
multimodal, intermodal approach would be best. And so they 
didn't know where to put it.
    So they didn't put it in highways, they didn't put it in 
transit. They didn't put it in these modes, which have a 
distribution system for processing these grants. Instead, they 
gave it to the policy office, which, by its very name, it is 
not an operational office. It is a policy office. So we have 
had to gear up, stand up an organization to be able to 
administer these two grant programs.
    Mr. Bost. One quick question before it runs out, then.
    Secretary Chao. Yes.
    Mr. Bost. You said we went through the TIGER already. How 
quick do we think the INFRA----
    Secretary Chao. I hope it comes out this week.
    Mr. Bost. The TIGER will be out this week.
    Secretary Chao. Yes.
    Mr. Bost. But INFRA, how long----
    Secretary Chao. I hope we will switch right to that. 
Hopefully, June.
    Mr. Bost. OK, all right, thank you very much.
    Secretary Chao. Early summer.
    Mr. Shuster. I thank the gentleman. I now recognize Mr. 
Carson for 5 minutes.
    Mr. Carson. Thank you, Chairman. Thank you, Madam 
Secretary.
    Madam Secretary, the administration contends that the 
procurement process is broken, and that this is a major factor 
as to why the FAA hasn't made more progress with NextGen. Madam 
Secretary, what steps can the Department take today to improve 
the procurement process? And what statutory burdens or 
impediments are slowing the transition to air traffic control, 
for example?
    Secretary Chao. Well, the FAA doesn't have to follow the 
procurement. They were carved out. But they continue to follow 
it. I think there were fears about litigation, so that it takes 
the FAA a very long time to get new equipment. There have been 
recently, in the last 4 or 5 years, 8 years, maybe, 15 IG 
reports criticizing the NextGen project and its progress. So it 
is a big concern.
    Mr. Carson. And lastly, like everyone here who is concerned 
about their district, there has been a proposal that suggests 
the elimination of funding for previously approved capital 
investment grants like the Red Line in Indianapolis.
    Fortunately, there is a continued bipartisan support effort 
in Congress for these projects for fiscal year 2017 that has 
already been appropriated, yet local officials in my district 
are concerned about the unexplained delays in releasing these 
funds.
    Madam Secretary, Indianapolis has two bus--rapid transit 
projects awaiting appropriate funds, the Red Line and the 
Purple Line. We are wanting to know what the holdup is. And 
when will the administration end the delays and objections to 
transit and approve these projects?
    Secretary Chao. Well, we don't like delays, and we don't 
intend to delay. There has been a delay? Let me take a look at 
that, I am not aware of that.
    Mr. Carson. Thank you, ma'am.
    I yield back, Mr. Chairman.
    Mr. Shuster. I thank the gentleman. Mr. LaMalfa is 
recognized for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Thank you, Secretary, 
for being here today and enduring what you have to with some of 
what goes on around here.
    Let me narrow it down. I was pleased to work with Mr. Babin 
last year on the ELD issue, and I appreciate the comments of 
several of my colleagues here, Mr. Bost and others, on the 
issues with ELD.
    Now, it is one thing for Washington several years ago to 
legislate ELDs, that would be great, everybody will love them. 
And indeed, that has worked out for probably a lot of folks, 
the larger outfits that are--have ability to afford and train 
many drivers on that. But we get down again to one size doesn't 
fit all. You have unique single carriers, Mom and Pop, whatever 
you want to call it, and industries that it doesn't always 
adapt well to with agriculture and livestock.
    And I greatly appreciate that there has been that, you 
know, exemption done so far for the 90 days, but we are coming 
up on March 18th here, where, if nothing is done to further 
that exemption or have a--or, you know, the waiver, and get to 
an exemption status, then March 19th there is going to be a lot 
of haulers that have really no way to do this right.
    And we come down again to the unique situation that--of 
hauling livestock or--maybe we can even talk about hazardous 
materials, or maybe other ag products. But livestock, these are 
animals on the hoof, on the--in a trailer. And because of 
unknown--you know, unknowable conditions, traffic, weather, 
what have you, they got to get A to B. And some of those are 
very long hauls, and we are talking about livestock processing, 
which seems to be not something that is in everybody's back 
yard, due to zoning. Much of this has to go on in the Midwest. 
And, you know, long hauls we are talking about.
    So yes, I agree--I saw several colleagues shaking their 
heads--hours of service is a problem. We need flexibility on 
this. We need flexibility. It really works for the drivers and 
the people that are striving to do this and do it well.
    So I would like to ask you, please, really, really look 
at--and Mr. Bost brought up the Motion Picture Association of 
America has a 5-year exemption now, and because--my 
understanding is that they do a really good job on their 
records of duty status, so they don't need the ELD. And so it 
is also well known that the livestock haulers--these are well-
trained individuals, because they are hauling very valuable 
commodities that are perishable, they are animals. They are 
very well trained, and they have a tiny, tiny percentage of 
accidents, much lower than the average.
    So we ought to look at that as a--given that good record, 
that they should be able to look at a similar exemption, as the 
Motion Picture Association--at least for this next 2 weeks, 
since the 18th is--they will wake up on the 19th, if there is 
not an additional waiver done, of being either outside the law 
or endangering their animals, or even, you know, themselves, 
going to have to do some things.
    So let me ask you. Can we please look at, in the short 
term, an additional waiver, but a really good, hard look at a 
5-year-type exemption, similar to the motion picture industry, 
which I would submit that the agricultural products have a heck 
of a lot more value, given watching the Oscars the other night, 
than some of the product coming out of Hollywood.
    Secretary Chao. I am very sympathetic to this issue, and we 
are very much aware of the March 18th deadline. We, in fact, 
just had a meeting on it yesterday.
    As you pointed out, the hours of service is the issue. And 
we are very much bound, constrained, by legislation and 
regulations on that.
    Mr. LaMalfa. We will work on that side, Madam Secretary.
    Secretary Chao. So----
    Mr. LaMalfa. But for the short term, this is what we need, 
you know, and--I am sorry, please go on.
    Secretary Chao. So let me have also Ray Martinez and Cathy 
Gautreaux. We now have two people over there, and they should 
be really paying a visit to all of you----
    Mr. LaMalfa. Well, maybe----
    Secretary Chao [continuing]. To get your input, and also to 
explain the difficult situation that we find ourselves, and how 
do we go forward.
    Mr. LaMalfa. Well, I would be happy to help put together a 
group of my colleagues on that, and we can, you know, have a 
good, productive opportunity to speak about that.
    Secretary Chao. Thank you.
    Mr. LaMalfa. Because--and I do appreciate it. Don't----
    Secretary Chao. But we will act before March 18th. Yes.
    Mr. LaMalfa. OK.
    Secretary Chao. Yes.
    Mr. LaMalfa. Good. So that----
    Secretary Chao. Absolutely.
    Mr. LaMalfa. That is a commitment that we can at least find 
some breathing room for these folks that are--again, have mere 
days left. Because what we are looking at with livestock is 
very unique, and I think that, with the 90 days very valuable 
to them--I had another thought on this, as well.
    Hazardous materials, I have had people speak with me about 
that, they are in that business, too. And we are coming down on 
an hours of service problem. And so, longer term, I hope we can 
work with you on that and get the flexibility, as long as we 
can get our own nonsense of politics around here beyond that.
    I will finish on this. Motor carrier safety, to my 
knowledge, has only had maybe two meetings with folks on this. 
And I know part of the intent originally was that there would 
be the opportunity to have this education back and forth, and I 
don't think there has been nearly enough with that for--with 
the Federal Motor Carrier Safety Administration to have them 
hear firsthand, better than I can illustrate, what they are 
dealing with on the livestock and other ag and things.
    So thank you for listening on that. I appreciate it.
    Mr. Shuster. I thank the gentleman. I now recognize Ms. 
Wilson for 5 minutes.
    Ms. Wilson. Thank you, Chairman Shuster, and--for holding 
this important hearing. Welcome back, Madam Secretary.
    As you know, U.S. seaports are economic engines that drive 
growth for the Nation. U.S. seaports activity generates more 
than $320 billion a year in Federal, State, and local revenue. 
Could you please address how the President's infrastructure 
plan will help seaports continue to grow and support the 
Nation's economy, and specifically how it will help facilitate 
the modernization of the Nation's shipping channels?
    Secretary Chao. Well, the ports are part of the 
infrastructure. And so they are part of the proposals that will 
be addressed by the local and State governments. They are not 
excluded.
    Ms. Wilson. OK. So you plan to fund projects that have 
received no allocations of Federal funds to date that put forth 
their own money as they partner with cities and States, like 
the dredge in Miami?
    Secretary Chao. The budgets for the Transportation 
Department will still be ongoing. So whatever monies are there 
for highways, transit, rail, ports are still there. The 
infrastructure money is on top of that. And so the ports have 
access to TIGER grants, they have access to these maritime 
grants, even. And the INFRA grants, as well.
    Ms. Wilson. OK.
    Secretary Chao. On top of the regular funding that the 
Department puts out.
    Ms. Wilson. Good, OK. Along with our Nation's roads and 
bridges, the majority of our public schools are now reaching 
the end of their 40- to 50-year life cycle. America's public 
schools are the Nation's second largest public infrastructure 
investment, after highways and bridges. But investments in 
school infrastructure have lagged.
    Sadly, these infrastructure plans make no mention of public 
schools, despite the fact that the President has talked about 
it. Do you feel school facilities should be a part of a 
comprehensive infrastructure investment package?
    Secretary Chao. One of the congressmen asked about the 
hardening of the schools, and what is the Federal role in that. 
And so I spoke on how devastating the recent tragedies have 
been to our Nation, and I said that I will bring that concern 
back to the White House and to the President. He is obviously 
very concerned about this issue.
    I don't know how this fits, but clearly the hardening of 
our schools is an issue that was discussed in the televised 
meeting that the President had with the survivors, the 
relatives, and----
    Ms. Wilson. What I am talking about is----
    Secretary Chao. Yes?
    Ms. Wilson [continuing]. Buildings, classrooms, 
laboratories, equipment, learning labs, updating old buildings, 
not necessarily just a hardening. Is that something that you 
would be----
    Secretary Chao. Yes, I don't know, sorry.
    Ms. Wilson. Is that something that you would bring up, as 
far as a comprehensive infrastructure investment package, 
schools, aging schools that are 50 and 60 years old?
    Secretary Chao. There are many agencies that are involved 
in this, as I mentioned. I will be more than glad to bring it 
back to the White House.
    Ms. Wilson. OK, thank you. My mantra in Congress has been 
jobs, jobs, jobs, since the first day. And I was pleased to 
learn that the administration's infrastructure plan contains 
some workforce development proposals, including expanding Pell 
grants to cover short-term certificate programs and increasing 
apprenticeships. However, the details were scant.
    Can you elaborate on the administration's plan to tackle 
workforce development?
    Secretary Chao. We are actually going to be facing a very 
tight market. To build infrastructure is actually quite a 
skill, it is a trade skill that we don't have enough of, which 
is why the workforce development and retraining and training 
provision was put into the infrastructure proposal.
    The details are to be fleshed out, in conjunction with the 
Congress. We sent principles, rather than legislative language, 
in a show of, I think, deference and also partnership with the 
Hill, that we want to work on these things.
    Ms. Wilson. Thank you.
    Chairman Shuster, I have additional questions. Can I submit 
them?
    Mr. Shuster. Yes, you may submit----
    Ms. Wilson. For the record? For followup? Because we are 
out of time.
    Mr. Shuster. Thank you----
    Ms. Wilson. Thank you so much.
    Mr. Shuster. Thank you very much, Ms. Wilson. Mr. Westerman 
is recognized for 5 minutes.
    Mr. Westerman. Thank you, Chairman. Thank you, Secretary 
Chao, for your leadership and for the administration's focus on 
infrastructure. Hopefully we can work together to get a good 
package out for the country.
    I represent a rural district in Arkansas with a lot of 
infrastructure needs. I know that we have to look at all 
methods in funding infrastructure projects. There is really not 
any private-public partnerships or toll systems that would work 
on the infrastructure in Arkansas.
    But as we look at, you know, one particular project, 
Interstate 49 that passes through my district, this is part of 
an interstate system that reaches from the gulf to Canada. 
Interstate 49 goes from New Orleans up to Kansas City, and then 
there are two other interstate routes, on up to the Canadian 
border. But if you look at that whole transportation corridor, 
the only part that is not finished is Interstate 49 in western 
Arkansas.
    It is about a $3.2 billion project. It is not just critical 
for my district and our State, but it is critical for that 
whole region of the country, and I would say the whole country, 
as we see more goods moving back and forth to the gulf and to 
Canada.
    So, my question on that is how do we--when we get into 
these infrastructure projects, how do we make the case for the 
importance of that project? Is that one that you are aware of? 
And is there----
    Secretary Chao. Recognizing the unique needs of rural 
America, the infrastructure bill does have a provision that 
addresses just infrastructure in rural areas. And that is about 
20 percent of the Federal funds. And it will be done on a 
formula basis, 90 percent of it.
    Mr. Westerman. So of the $50 billion that I believe you 
have proposed----
    Secretary Chao. $40 billion would be by formula.
    Mr. Westerman. OK. So that is----
    Secretary Chao. And there was some disagreement as to how 
that formula would go, and we are very open to discussing it.
    Mr. Westerman. Yes. So we would want to work with you on 
the formula, and how that affects rural areas.
    You know, there is also another interstate, I-69, that goes 
from Houston to Detroit. There is less of that interstate 
system that is completed, but I know there is parts of it that 
go through Mississippi, Tennessee, and Kentucky. And, you know, 
I would advocate strongly for Interstate 69 in those other 
States, because until the whole corridor is complete, it 
doesn't do a lot of good for the areas that could benefit from 
it.
    Also, I know this might be an area that--from some of your 
previous comments, but on the navigable waterways, the 
McClellan-Kerr River Navigation System on the Arkansas River is 
in need of repair. There is a 12-foot channel project that 
would take a lot of traffic off of the interstate system. The 
operators on that river have already self-imposed a 45-percent 
increase on their fuel tax. But how do we get more attention 
and funding on these inland waterways?
    Secretary Chao. Well, thank you very much for bringing it 
to my attention. And a lot of it is actually the Army Corps of 
Engineers. It doesn't even go through the Maritime 
Administration. So MARAD used to have a Deputy Administrator 
for inland waterways. And I have come back, 26 years later, and 
I don't know where that position went.
    So it is important, and we need to talk more about it. We 
would be more than glad to work with you on it.
    Mr. Westerman. Yes, maybe we can work together with the 
Corps to make sure that these--you know, some of these 
structures have outlived their useful life. And 1 failure on 1 
of those 13 locks and dams could shut down a lot of river 
traffic, disrupt the economy, and put a lot more trucks out on 
the interstate.
    It is a big country, you have got a lot of things to look 
over. And I just want to offer that if there is any way that me 
or my office can help, please reach out to us. And thank you 
again for being here.
    I yield back.
    Secretary Chao. Thank you for your offer.
    Mr. Shuster. I thank the gentleman. Mr. DeSaulnier is 
recognized for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. My light bulb is 
out. I apologize, Madam Secretary.
    I just want to start by saying one of the reasons I really 
wanted to be on this committee is its reputation as being 
bipartisan. And certainly you understand the nature of a 
bipartisan approach when it comes to this country's 
infrastructure. I fear, with this particular initiative--and to 
be honest, Madam Secretary, with the tone of this hearing--we 
are doing great damage to that history of bipartisanship, with 
that just as an observation and as an admonition maybe to all 
of us that we should refocus on what I think was historically 
the spirit of this committee.
    And I will go back. I remember when my dad was a Republican 
member of the Massachusetts State Legislature, and he had a 
close friendship with Governor Volpe, who became the first 
Administrator of the Federal Highway Administration, and the 
second Secretary of Transportation. He worked for President 
Eisenhower and President Nixon and President Ford in those 
positions. And he actually advocated for raising taxes, because 
he knew he had to raise taxes and develop revenue, real 
revenue, as well as making improvements as--and I agree with 
you, there are regulatory and administrative improvements we 
can do.
    I look at States like California, where I am from. We are 
trying to copy the Department of Transportation in Washington. 
It has done a remarkable job in Minnesota and Massachusetts, 
and I have tried to engage with some of your staff as to how we 
could use those laboratories of invention at the State level in 
that regard. So I do think there are opportunities. However, I 
think you have to be realistic about what the actual benefit 
will be.
    So, my two questions. First is about what certainly seems 
to me, representing a largely suburban district in the bay 
area, where 70 percent of my constituents travel out of my 
district to get to work, where our congestion has increased by 
80 percent in just 5 years because of our economy--the GDP in 
the bay area grew by 11.7 percent in 2015, and it has put 
enormous pressure on our infrastructure. And we were hoping for 
some support from the administration in this regard. I see this 
as more of an attack on urban and suburban commuters. It 
certainly seems to prejudice towards rural commuters, or rural 
users.
    And on the history of SB 1, as my colleague from southern 
California pointed out you are going to look at, I will just 
give you a little history, having been involved in that before 
I came to Congress as chair of the transportation committee in 
both the assembly and the senate. When that passed, it had 
bipartisan support. It raised the gas tax, it raised the 
vehicle license fee. And one of the key supporters of that was 
Senator Cannella from northern San Joaquin Valley, the same 
area that my friend, Congressman Denham, represents. So he 
voted for that, because he knew he had to identify revenue for 
his suburban commuters to reach into Silicon Valley and San 
Francisco.
    So my first question--I am going to give you both these 
questions so you can use time to answer both of them--is this 
seems like an attack on suburban commuters. We have some of the 
largest super-commutes in the bay area. And DC and northern 
Virginia has similar large super-commutes, people taking an 
hour and a half to 2 hours each way, because of the cost of 
housing and other reasons, to commute. There doesn't seem to 
be, other than the requirement for those commuters to raise 
their own tax, the State and local taxes, to pay for this with 
very little support from the Federal Government.
    So, first question is could you answer that challenge, or 
that perception?
    And the second one--and I think a more important question--
I have is you were quoted on March 29th saying--and I read in 
quotes of 2017--``The problem is not money, it is the delays 
caused by the Government permitting process that hold up 
projects for years, even decades, making them risky 
investments.''
    And then in 2016, the U.S. Department of the Treasury found 
in a commissioned report, ``A lack of public funding is by far 
the most common factor hindering the completion of 
transportation and water infrastructure projects.''
    So my two questions are answer the suburban-urban--seems 
like targeted lack of support, and then this--your quote 
saying, well, if we just had regulatory reform and permitting 
process reform, but your department is saying the opposite. And 
if you could answer those two questions, I would be 
appreciative.
    Secretary Chao. First of all, thank you for giving me the 
opportunity to respond. Number one, and I say this with great 
respect and with no intention to anger, that this is an attack 
on suburbia, suburban areas, which is not true, because the 
question can actually be turned around. For years and years and 
years, for decades, rural America has been ignored and 
forgotten. And so this infrastructure proposal tries to address 
the needs in rural America.
    Number two, Marin County, I should not have singled them 
out because I would probably anger them, but some of these 
projects that we are talking about are in the richest areas of 
the country. And we have the rest of the country subsidizing 
them.
    My quote about the problem is not funding, I think the 
problem is not funding, if we allow the private sector to fully 
participate. But in the years hence we have certainly 
discovered that there are Members of Congress who don't want to 
rely too much on public-private partnerships. If they don't 
want to rely too much on public-private partnerships, then 
funding is a problem. And the public-private partnerships, 
allowing the private sector, allowing the pension funds to come 
in and invest in public infrastructure was a way to address the 
funding gap.
    Mr. DeSaulnier. Thank you. Thank you, Mr. Chairman, thank 
you, Madam Secretary.
    Secretary Chao. Thank you.
    Mr. DeSaulnier. I just say I am disappointed in your 
response. You are making this more of a partisan issue than it 
should be.
    Secretary Chao. I am not making----
    Mr. Shuster. The gentleman's time is expired.
    Secretary Chao. My whole background has never been 
partisan.
    Mr. Shuster. The gentleman's time has expired.
    Secretary Chao. But it seems that whenever I say something 
that people don't like to hear, I am accused of partisanship. I 
think that is highly unfair.
    Mr. Shuster. I thank the gentlelady. With that, Mr. Weber 
is recognized for 5 minutes.
    Mr. Weber. Madam Chao, Secretary Chao, thank you for being 
here. You came to Beaumont, which is in my district, which, by 
the way, is not partisan. So thank you for doing that. We 
appreciate that, I think the week my dad died, and I could not 
be there, and so I hope you will come back.
    I want to address a question about TIGER grants, if I may. 
Beaumont moves more military personnel and equipment than--the 
Port of Beaumont--than any other port in the country.
    And I want to read something that the Army Chief of Staff, 
General Mark Milley, said in his first major address. He said, 
``Readiness for ground combat is--and will remain--the U.S. 
Army's number one priority.'' An article on the U.S. Army's 
website goes on to say, ``Readiness is the ability of the Army 
and its sister services to respond to any situation at any time 
with effective force, and requires not only trained troops, but 
an effective transportation infrastructure capable of supplying 
their needs, wherever and whenever they operate.''
    Critical to this is port capacity. Of course, that is the 
Army. And so I would argue that Beaumont is extremely 
important, from a national--the Port of Beaumont--from a 
national security perspective.
    In the issue of TIGER grants, do you think, Madam 
Secretary, that maybe when TIGER grants are being considered, 
that national security and the readiness that General Milley 
talked about should be considered in awarding TIGER grants?
    Secretary Chao. I don't know the answer to that.
    Mr. Weber. OK.
    Secretary Chao. And I will take a look at it.
    Mr. Weber. All right.
    Secretary Chao. I was not aware of that. So let me take a 
look at it.
    Mr. Weber. Well, let me say that our area was ground zero 
for Hurricane Harvey flooding, the first three coastal counties 
of Texas: Jefferson County, Galveston County, and the southern 
half of Brazoria County. We have got two ports over in 
Jefferson County. Both of them are among the strategic 
seaports, been recognized as strategic seaports, Port of 
Beaumont, Port of Port Arthur. Neither port in southeast Texas, 
when it comes to Federal grants--they have just been ignored 
over the years.
    So my question is, you know, could you take a look at that? 
The Sabine-Neches Waterway, which those two ports are on, is 
the second largest waterway in the Gulf of Mexico, second only 
to the Mississippi River, one of the most vital waterways in 
the Nation. Sixty percent of the Nation's jet fuel is produced 
in our district. Almost 90 percent of the Nation's LNG is 
exported out of the Sabine-Neches Waterway. It is huge, when it 
comes to national security, and even to energy.
    Noting the fact that there has been a lot of Harvey 
destruction there on the gulf coast of Texas, we would like to 
see you all have a policy of awarding TIGER grants, where you 
would only just put one TIGER grant in one area, and one--but 
in a region maybe you could consider more than one TIGER grant. 
And maybe you might even consider the fact of the devastation 
from the recent Hurricane Harvey and others--I realize there is 
others around the country. Of course, this is my district.
    So we would love to see you consider that maybe USDOT 
should provide assistance through the TIGER and even the INFRA 
programs for the region's infrastructure.
    Applications and geographic locations impacted by natural 
disasters, we believe, should not be restricted to just one 
award per geographic location. Much of the southeast area--not 
just Jefferson County, but Galveston County and the southern 
half of Brazoria County, Port of Freeport was hit hard by 
Harvey. So we would like to have some conversation with someone 
from your office about maybe looking at the way those TIGER 
grants are awarded, and perhaps talking about the 
infrastructure here on the gulf coast of Texas that is so vital 
to energy, so vital to military readiness, and we would love to 
have the name of somebody in your office to reach out to so 
that we could have that discussion.
    Would you be open to, number one, having your staff look at 
it----
    Secretary Chao. Absolutely.
    Mr. Weber [continuing]. And, number two, getting back with 
us on it?
    Secretary Chao. Sure, we will be glad to set that up.
    Mr. Weber. That is easy enough. And I appreciate you being 
here, because Harvey was very, very nonpartisan, and you guys 
helping us would help everybody. And we appreciate you.
    Secretary Chao. Thank you.
    Mr. Weber. Thank you.
    Mr. Shuster. I thank the gentleman. Mr. Cohen is recognized 
for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair, and thank you for having 
the hearing.
    And Secretary Chao, it is nice to have you here and back in 
Government service. I thank you for your past service.
    In 2016 I wrote to Secretary Foxx in support of the 
Tennessee Department of Transportation's application for what 
was then called a FASTLANE [Fostering Advancements in Shipping 
and Transportation for the Long-Term Achievement of National 
Efficiencies] grant for roadway improvements along the Lamar 
Avenue--not named for Lamar Alexander, but strongly supported 
by Lamar Alexander--corridor in Memphis. Are you familiar with 
the Lamar Avenue corridor project, by chance?
    Secretary Chao. I am not.
    Mr. Cohen. Well, not kind of surprised that you aren't, 
because it is a local issue. But it is very important, 
nationally, as well.
    Memphis, as you may well know, is known as not only the 
basketball school that occasionally beats Louisville, but also 
as America's distribution hub. We are home to the global 
headquarters of FedEx and a great airport, five Class I 
railroads, and one of the largest inland ports in America along 
the river, Mississippi River. In short, Memphis has one of the 
Nation's most significant freight corridors, and substantial 
importance to the national cargo network and the national 
economy.
    There is severe congestion along Lamar Avenue, where there 
is a program right now with BNSF Railway and a multimodal 
corridor. And the lack of sufficient roadway there, the trucks 
are just backed up forever. And bad traffic, but also bad for 
the truckers to be able to get their cargo to the BNSF Railway 
and be loaded on to the trains, hurts the transportation of 
American goods. It hurts the BNSF multimodal corridor, and the 
Memphis International Airport right nearby, the second busiest 
cargo airport in the United States.
    So this is important to the Nation. According to the 
Federal Highway Administration, the multimodal freight network 
there directly supports millions of U.S. jobs, and moves 55 
million tons of jobs worth over $49 billion daily. System 
strains and inefficiencies, including congestion, is estimated 
to cost $1 trillion annually: 7 percent of the U.S. economic 
output.
    Madam Secretary, at the beginning of the new administration 
your agency revamped existing programs in the FASTLANE grant 
program, now known as the INFRA grant program. What is the 
general purpose or mission of INFRA grants? And how would the 
Lamar Avenue corridor proposal fit into that?
    Secretary Chao. I don't know, because I am not in the 
processing or the deliberative end of cuts to all of these 
grants. So I am not aware of that.
    The INFRA grants are recast to add in economic development 
as one of the criteria, as well. So let me take a look at that.
    Mr. Cohen. Thank you.
    Secretary Chao. And I will be more than glad to get back to 
you.
    Mr. Cohen. If you would, I would appreciate it. Senators 
Alexander and Corker both are very supportive. I am sure 
Representative Kustoff is, as well, and Governor Haslam was. It 
came from the Department of Transportation, who made the 
request.
    Is there anything you know of, offhand, or somebody on your 
staff with you that you can advise us on possibly making a more 
compelling case for the future consideration of this grant?
    Secretary Chao. Let me check up on what the status is. And 
again, I will be more than glad to get back to you.
    Mr. Cohen. Thank you.
    Secretary Chao. And you should also know what some of the 
concerns are, sure.
    Mr. Cohen. And then I have questions here at the end. And I 
am surprised this hasn't been asked yet. What is your opinion 
of the NCAA's infractions on the University of Louisville 
basketball program?
    [Laughter.]
    Secretary Chao. Oh, I am in such big trouble. It has been 
very sad. It has been really, really sad.
    Mr. Cohen. Was the NCAA wrong to punish Louisville like 
they did, or were they right?
    [Laughter.]
    Secretary Chao. I hope I can get a pass on that, too.
    [Laughter.]
    Mr. Cohen. Well, they did it----
    Secretary Chao. It has been very sad for the whole 
community.
    Mr. Cohen. They did it to Memphis first with Calipari. And 
with Pitino you got it second. So I feel your pain. I see that 
banner up in the FedExForum, even though it is not there, and 
you will be able to see it in the Yum! Center, because it'll be 
there, even though it is not there.
    Secretary Chao. There have been wonderful young men who 
played in that game, and now they are not going to have their--
--
    Mr. Cohen. Good luck in the tournament.
    Secretary Chao. Thank you.
    Mr. Cohen. I yield back the balance of my time.
    Mr. Shuster. I thank the gentleman. Now I will recognize 
Ms. Plaskett for 5 minutes.
    Ms. Plaskett. Thank you very much, Mr. Chairman and Ranking 
Member. Thank you, Secretary Chao, for being here this 
afternoon with us. And I especially want to thank you for 
coming to the Virgin Islands and Puerto Rico, and to all the 
places that you visited that have been affected by the 2017 
hurricane season.
    There has been much discussion in this hearing about, in 
particular, the $50 billion rural infrastructure program. And 
one of the questions that I have relates to--in that program it 
states that portion of the rural infrastructure program funds 
will be set aside for Tribal infrastructure and Territorial 
infrastructure with the remainder available to the States.
    Now, the U.S. Territories have been subjected to 
substantial infrastructure funding cuts over the last 25 years, 
while the 50 States and the District of Columbia have received 
increases. These cuts have resulted in deterioration of our 
public highway system, enormous damage to our ports. I know 
that you have been a frequent visitor to the U.S. Virgin 
Islands, and I know that our Governor and others have spoken 
with you about that issue.
    How much of the $50 billion in rural infrastructure program 
funding does the administration expect to set aside for 
Territorial infrastructure, and how might that set-aside for 
Territorial infrastructure be apportioned among the 
Territories?
    Secretary Chao. That is a very good question. I don't know. 
And I certainly think that your concerns are very reasonable. 
And so we have worked on other things in the past, especially 
in the aftermath of the hurricanes. So we look forward to 
working with you on that, as well.
    Ms. Plaskett. I would appreciate that. Because, as you 
know--and you may have seen and others in your agency have also 
seen--that much of the damage that we sustained, particularly 
with our roadways that are right onto--right abutting the 
waterways, that there was--a substantial deterioration occurred 
because we did not have funding over a protracted period of 
time to support our highway system. And that increase would 
really be important to us. We have experienced enormous 
decreases over the years, along with the other Territories: 
Guam, Northern Marianas, and Puerto Rico, as well.
    Do you know how ``rural'' is going to be defined for 
purposes of the rural transportation infrastructure program? 
Will it be based on lane miles, or will it be based on 
population?
    Secretary Chao. I think that is a very good question, as 
well. There is a certain definition to that. And I have been 
asked this, and I have forgotten it. So let----
    Ms. Plaskett. Thank you. And will----
    Secretary Chao. Let me get back to you on that.
    Ms. Plaskett [continuing]. Your agency be the primary lead 
in----
    Secretary Chao. No.
    Ms. Plaskett [continuing]. Administering that, or will the 
Department of Agriculture or others--how will that be 
determined? Who will determine how that funding is distributed?
    Secretary Chao. As of now it is primarily the Department of 
Agriculture.
    Ms. Plaskett. OK, thank you. Good for me, I sit on the 
Committee on Agriculture, as well. So I will tag team you guys 
on that one.
    But, you know, as we talk about these things, the last 
thing I wanted to talk with you about was resiliency. Does the 
White House infrastructure plan include considerations 
particularly for States and other areas to have found that the 
Federal investment on hazard mitigation has a six-to-one return 
on investment?
    So working on resiliency is really important for the fiscal 
responsibility of this Nation. Are there opportunities for new 
funding for new infrastructure to incentivize areas in 
resiliency?
    Secretary Chao. You make a very good point. As of now, I 
think, if anything, there is a bias toward building new 
structures, rather than maintenance.
    Ms. Plaskett. And in that resiliency, one of the things, as 
well as this Federal program that you were discussing, much of 
it is to incentivize local and municipal areas. I know that the 
chairman says that in Pennsylvania they have expended all of 
their resources at the State level and the local level to do 
the matching that is necessary for the Federal Government. In 
the Virgin Islands, as well as in Puerto Rico, I know that we 
are already at deficit budgets. And so it will be really 
difficult for us to provide that match.
    As well as are there mechanisms in your thought, in the 
thought of the administration or the President, in how we can 
add additional incentives to bring private investment to create 
public-private partnerships?
    Secretary Chao. Well, the U.S. Virgin Islands would be 
eligible for rural, that rural title. The Virgin Islands will 
be part of that, and 40 percent, $40 billion of that will be 
formula, $10 billion will be competitive. We are currently 
doing the formula on a lane mile basis, which, obviously, some 
people don't agree with.
    So we will look forward to working with Congress as you 
rewrite this bill, or on addressing these issues.
    Ms. Plaskett. Thank you so much.
    Mr. Shuster. I thank the gentlelady. And Madam Secretary, 
thank you so much for being with us today. I appreciate your 
frankness. Again, there are some folks that are going to submit 
questions in writing to you, we would appreciate that response.
    But again, thanks for taking the time, and thanks for your 
public service. Thank you.
    Secretary Chao. Thank you.
    Mr. Shuster. I ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing, and unanimous consent that that record remain 
open for 15 days for additional comments and information 
submitted by Members or witnesses to include in the record of 
today's hearing.
    The gentlelady from Connecticut is recognized.
    Ms. Esty. Thank you, Mr. Chairman. And again, thank you, 
Secretary Chao. And we appreciate your persistence and 
resilience under this very long hearing. And thank you and to 
your staff for staying with us here, all the way to the end. We 
had a record participation, I think, of Members, which, I 
think, does underscore, yes, concerns, but also really a deep 
desire and commitment to get something done for the American 
people. And we can assure you we really do want to figure out a 
way to get to yes with the administration on something that 
will be good.
    Secretary Chao. Well, our intent is absolutely the same. We 
may have differences, but let me please emphasize again we want 
to work with the Congress on a bipartisan basis.
    Ms. Esty. Thank you.
    And Mr. Chairman, I would like to ask unanimous consent to 
enter into the record letters from the following organizations 
to be included as part of today's hearing record: Advocates for 
Highway and Auto Safety and several other safety advocates; ITS 
America; Alabama Rivers Alliance, and a collection of other 
environmental advocates; Rebuild America's Schools; a letter 
from the National League of Cities and NATSO; and a letter from 
the New Democrat Coalition.
    Mr. Shuster. Without objection, so ordered.

        [The letters and statement referenced by Congresswoman Esty are 
        on pages 101-125.]

    Mr. Shuster. And, with that, the committee stands 
adjourned.
    [Whereupon, at 1:17 p.m., the committee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
                      <all>
                                    
</pre></body></html>
